<html>
<title> - TERRORIST ORGANIZATIONS AND MOTIVATIONS</title>
<body><pre>[Senate Hearing 107-455]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-455
 
                TERRORIST ORGANIZATIONS AND MOTIVATIONS 

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2001

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

79-736 PDF                       WASHINGTON : 2002 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  

























                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director

              Judith A. Ansley, Republican Staff Director

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                 MARY L. LANDRIEU, Louisiana, Chairman

EDWARD M. KENNEDY, Massachusetts     PAT ROBERTS, Kansas
ROBERT C. BYRD, West Virginia        BOB SMITH, New Hampshire
JOSEPH I. LIEBERMAN, Connecticut     RICK SANTORUM, Pennsylvania
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
JEAN CARNAHAN, Missouri              TIM HUTCHINSON, Arkansas
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky


                                  (ii)

  























                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                Terrorist Organizations and Motivations

                           November 15, 2001

                                                                   Page

Post, Jerrold M., M.D., Professor of Psychiatry, Political 
  Psychology and International Affairs, The George Washington 
  University.....................................................     7
Jenkins, Brian M., Senior Advisor to the President, Rand 
  Corporation....................................................    26

                                 (iii)


                TERRORIST ORGANIZATIONS AND MOTIVATIONS

                              ----------                              


                      THURSDAY, NOVEMBER 15, 2001

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SR-222, Senator Mary L. Landrieu (chairman of the 
subcommittee) presiding.
    Committee members present: Senators Landrieu, Roberts, 
Allard, Hutchinson, and Collins.
    Majority staff members present: Evelyn N. Farkas, 
professional staff member; Richard W. Fieldhouse, professional 
staff member; Maren Leed, professional staff member; Arun A. 
Seraphin, professional staff member; and Terence P. Szuplat, 
professional staff member.
    Minority staff members present: Charles W. Alsup, 
professional staff member; Edward H. Edens IV, professional 
staff member; Mary Alice A. Hayward, professional staff member; 
and Joseph T. Sixeas, professional staff member.
    Staff assistants present: Gabriella Eisen, Thomas C. Moore, 
and Jennifer L. Naccari.
    Committee members' assistants present: Barry Gene (B.G.) 
Wright, assistant to Senator Byrd; Jason Matthews, Marshall A. 
Hevron, and Jeffrey S. Wiener, assistants to Senator Landrieu; 
Peter A. Contostavlos and William K. Sutey, assistants to 
Senator Bill Nelson; Neal Orringer, assistant to Senator 
Carnahan; Brady King, assistant to Senator Dayton; Wayne Glass, 
assistant to Senator Bingaman; John Gastright, assistant to 
Senator Thurmond; George M. Bernier III, assistant to Senator 
Santorum; Robert Alan McCurry, assistant to Senator Roberts; 
Douglas Flanders, assistant to Senator Allard; James P. 
Dohoney, Jr. and Michele A. Traficante, assistants to Senator 
Hutchinson; Kristine Fauser, assistant to Senator Collins; and 
Derek Maurer, assistant to Senator Bunning.

    OPENING STATEMENT OF SENATOR MARY L. LANDRIEU, CHAIRMAN

    Senator Landrieu. Good afternoon, I would like to welcome 
our special guests and panelists to the eighteenth hearing of 
the Subcommittee on Emerging Threats and Capabilities. The 
ranking member, Senator Roberts, is joining me today and we 
will have other members of the subcommittee who are actually 
now attending a members-only briefing with Secretary Wolfowitz 
on the latest developments on one of our fronts in Afghanistan. 
So I will just begin.
    As usual, we begin with opening statements and then go 
through a round of questions. I want to again welcome you and 
thank you very much for joining us. The first part of our 
hearing, as was announced, will be open. The second part of our 
hearing, with our second panel, will be classified and closed.
    As we look around we can see that it is a very sunny day in 
Washington, but it is actually even sunnier in Afghanistan, 
with the bright faces of so many as this liberation begins. But 
it would be a mistake to think that this is anything, as 
Churchill would say, but the end of the beginning. The seeds of 
the war with al Qaeda were planted long ago, the roots run very 
deep, and the struggle to destroy those roots will take time 
and sacrifice.
    We only need to contrast the headlines of the Taliban 
retreat with the report from the London Times this morning. The 
headline reads ``Bin Laden's Nuclear Secrets Found.'' ``Within 
one of al Qaeda's safe houses in Kabul, partly burned documents 
written in Arabic and German and English give detailed designs 
for missiles, bombs, and nuclear weapons.''
    We should all realize that we face an enemy whose mindset 
we can hardly even comprehend. These killers hold a world-view 
so alien to us here in America that it poses a unique threat of 
its own. Understanding the motives of our enemies has very real 
impacts and consequences. First, it dictates strategy. If our 
Government can correctly assess our opponent, our enemy's 
motivations, our warfighters can make more educated decisions 
about their objectives.
    The alternative of not understanding motivations or 
objectives, has disastrous consequences. We have only to look 
as far back as September 11, the hijackings of that day, for a 
very real example. Up until that time the majority of 
hijackings did not result in a great loss of life. Therefore, 
the pilots and crew of aircraft were trained to cooperate, 
avoid resistance, and calm the passengers. That training was 
ineffective, given the motives and objectives of these killers, 
the enemy we face today. As a result, we were left unprotected 
and unprepared.
    The ash heap of history is riddled with nations which 
failed to understand what their opponents wanted and what they 
were willing to do to get it. Our own Nation made this mistake 
during the Vietnam War. Yet in most cases it has been America's 
enemies that have mistaken American respect for life as 
softness, our dedication to democracy as weakness, and our love 
of liberty as a lack of resolve. From imperial Japan's sneak 
attack on Pearl Harbor to Iraq's invasion of Kuwait to the 
Taliban's refusal to comply with our demands, our own 
experience teaches us the lesson that we must understand our 
opponent's motivation to craft a strategy to win the war.
    Second, only through the study of motivations can we 
prioritize the needs of our Nation. During the Cold War we 
needed thinkers and leaders like George Kennan and Dean Acheson 
and others to help us understand the Soviet enemy. In fact, we 
placed a huge educational investment in understanding Russian 
language, culture, history, and philosophy. We understood that 
these investments were the only way we could make sound choices 
in prioritizing the threats to our Nation.
    Just as in our struggle with the Soviet Union, the 
challenge to the United States today is multifaceted and one 
for which we were initially unprepared and are still today 
underprepared. If we had not studied Soviet motives and 
understood their intentions, we never would have produced an 
effective defense. We must undertake the same endeavor for this 
war on terrorism, of which today we are just experiencing the 
end of the very beginning.
    I am sure that if you compile the list of all the unfunded 
requirements for the Federal Government's anti-terrorism effort 
it would stretch from here in this room right down to the 
Treasury Department. Yet we cannot possibly meet all of these 
requirements, so it becomes a matter of prioritizing them and 
that prioritization is very critical to our outcome.
    Finally, it is particularly important for the members of 
this subcommittee to understand our enemy's motivations because 
of our particular jurisdiction. Among other things, it is our 
responsibility to resource and oversee the work of Special 
Operations Command. Under that command, this Nation maintains 
one of its front-line capabilities for psychological 
operations. As our witnesses' testimony will make clear, this 
constitutes one of the most important aspects of this war. 
Therefore, it is vital for us to understand these motivations. 
It is the only way for us to evaluate the effectiveness of the 
Pentagon's efforts thus far and the only way for us to have 
some sense of the direction of the future.
    Terrorism, most experts agree, is violence or the threat of 
violence in order to coerce others to alter their actions or to 
refrain from actions. It has traditionally been aimed at 
altering Government policies or actions. Terrorists have 
traditionally taken hostages or victims in order to force 
governments to meet their demands. We have heard over and over 
from the 1960s to the present that the U.S. Government's policy 
is no negotiation with terrorists.
    But something has happened in the last decade. Some of the 
terrorists we confront today do not leave calling cards. They 
do not take credit for their actions and they are not 
interested in negotiating, but they are interested in spreading 
fear and exacting a high price in lives.
    We are very fortunate indeed to have two distinguished 
panelists before us as we deliberate this topic. Dr. Jerrold 
Post is Professor of Psychiatry, Political Psychology, and 
International Affairs at the George Washington University. He 
assumed this position after a 21-year career with the Central 
Intelligence Agency, where he founded and directed the Center 
for Analysis of Personality and Political Behavior. He has 
advised the U.S. Government on terrorist skyjackings, aviation 
security, weapons of mass destruction, and has published 
numerous books and articles on terrorism and political 
psychology.
    Mr. Brian Jenkins is a Senior Advisor to the President of 
RAND. Prior to that he served as Deputy Chairman of Kroll and 
Associates, an international investigative and consulting firm, 
and as Chairman of RAND's Political Science Department. He is a 
decorated combat veteran who served as a special operations 
officer in the Dominican Republic and Vietnam. He has also 
served as a consultant on terrorism to several Government 
agencies and has published books and articles on this subject.
    I welcome our panelists today and thank you for your 
insights. I thank you for the articles and the books that you 
have written on this subject. I think you have a great deal to 
share in terms of helping us in this subcommittee understand 
terrorist motivations so we can help shape our military to deal 
effectively to stem the loss of life, to prevent the loss of 
life in the future, and defend this great Nation and our allies 
from this day forward.
    At this time I would like to ask my ranking member, Senator 
Roberts, to join me with his opening statement.

                STATEMENT OF SENATOR PAT ROBERTS

    Senator Roberts. I thank the Chair. I would like to thank 
you, Senator Landrieu, for holding this important hearing and 
the closed briefing on terrorist organizations and the 
motivations behind such organizations. In light of September 11 
and the terrorist attacks on our Nation, our ongoing war not 
only in Afghanistan but also globally, this is a very pertinent 
hearing. That is probably the understatement of the day.
    On our first panel we have, as you have indicated, two very 
distinguished experts, Dr. Jerrold Post and Mr. Brian Jenkins. 
Without question, I think their insights will be most useful to 
this subcommittee as we continue to focus on how best to 
address and respond to global terrorism.
    Madam Chairman, I asked my staff to take a look at how many 
bills have been introduced since September 11 by members of 
Congress and there have been over 50; how many hearings, there 
have been 15; how many times people have asked Tom Ridge to 
come and share his views with them and, more importantly from 
the standpoint of those who asked, some marching orders I am 
sure they would have liked to have given Tom; and the nine 
committees that we have that have alleged or self-declared 
jurisdiction over this issue. The nine committees range from 
apples to zebras. That is not really a very good comparison, is 
it?
    Senator Landrieu. That is okay, it will work.
    Senator Roberts. Aardvarks to zebras. At any rate, we have 
the DOD responsibility and, as the chair has indicated, we have 
had 18 hearings. In talking to Director Ridge, the Vice 
President, and others, I have informed them continually that we 
do have quite a wealth of information in hearings that really 
warned us prior to the event.
    We also have two Government witnesses in the closed 
session, a representative of the CIA's Counterterrorism Center 
and Ms. Jennifer Oatman, a Senior Terrorism Analyst for the 
Joint Chiefs of Staff Joint Terrorism Analysis Center.
    I am going to skip part of this statement in the interest 
of time, but I think it is absolutely crucial as we continue 
our efforts, as the President has indicated, in regards to a 
lengthy war, a very difficult war on global terrorism, that we 
focus on understanding what really motivates the individual 
terrorist and the numerous terrorist organizations. Some 
questions: How and why were certain terrorist organizations 
really established? How do they recruit individuals to join 
their organizations, and in some cases take on suicide 
missions? In what way does U.S. foreign policy motivate and 
impact these organizations? How and why have these 
organizations become more violent and interested in 
catastrophic attacks in recent years? What strengths does the 
United States have to combat this new class of warrior, the 
warrior described so well by our former Commandant of the 
Marine Corps Charles Krulak?
    Perhaps more importantly, what are our military weaknesses 
as we engage in the war on terrorism? We had an unclassified, 
if that is the proper word for it, briefing with the 
Intelligence Committee yesterday where the Technical Advisory 
Group people came in and urged a top-down--I will not even say 
review; ``shakeup'' is probably a better word, in regards to 
our intelligence community, and in regards to this mission.
    These and many other questions must be addressed if we ever 
want to get to the root cause of global terrorism and find ways 
to deter and defeat it. It is my hope that this afternoon we 
will begin to get answers to some of these questions. I have 
some additional comments, but I would just like to make them 
part of the record in the interest of the time we need to hear 
from witnesses.
    [The prepared statement of Senator Roberts follows:]
               Prepared Statement by Senator Pat Roberts
    First, I would like to thank our chairman, Senator Landrieu, for 
holding this important hearing and closed briefing on terrorist 
organizations and motivations. In light of the tragic September 11 
terrorist attacks on our Nation and our ongoing war on global 
terrorism, this is a very timely hearing.
    I am pleased that we have before us on our first panel this 
afternoon Dr. Jerrold Post, Professor of Psychiatry, Political 
Psychology and International Affairs at the George Washington 
University and Mr. Brian Jenkins, the Senior Advisor to the President 
of RAND. Their insights will be most useful to the subcommittee as we 
continue to focus on how best to address and respond to global 
terrorism.
    I also look forward to hearing from our two Government witnesses in 
the closed session. A representative of CIA's Counterterrorism Center 
and Ms. Jennifer Oatman, a Senior Terrorism Analyst for the Joint 
Staff's Joint Terrorism Analysis Center, will discuss our Government's 
views and perceptions on terrorist organizations and motivations.
    Madam Chairman, this subcommittee was established in 1999 to 
provide a focus for the Department of Defense's efforts to counter new 
and emerging threats vital to U.S. national security interests. Having 
served as the first chairman of this subcommittee, and now as the 
ranking Republican, I have devoted much of my time to focusing on the 
terrorist threat to our Nation and I am very pleased that the 
subcommittee, under your leadership, is maintaining that focus.
    As we begin what we all expect to be a lengthy war on global 
terrorism, I firmly believe that it is crucial that we focus on 
understanding what motivates the individual terrorist and the numerous 
terrorist organizations. Questions such as the following must be 
answered with regards to terrorist organizations:
    How and why were certain terrorist organizations established? How 
do they recruit individuals to join their organizations, and in some 
cases, take on suicide missions? In what way does U.S. foreign policy 
motivate and impact these organizations? How and why have these 
organizations become more violent and interested in catastrophic 
attacks in recent years?
    These and many other questions must be addressed if we ever want to 
get to the root cause of global terrorism and find ways to deter and 
defeat it. It is my hope that this afternoon we will begin to get 
answers to some of those questions.
    Madam Chairman, before we turn to our first panel, I would like to 
read a paragraph contained in the Senate report accompanying the 
National Defense Authorization Act for Fiscal Year 2000:
    ``The serious prospect that known-terrorist Osama bin Laden or 
other terrorists might use chemical or biological weapons is of great 
concern. Bin Laden's organization is just one of approximately a dozen 
terrorist groups that have expressed an interest in, or have sought, 
chemical, biological, radiological, or nuclear agents. Bin Laden, for 
example, has called the acquisition of these weapons a `religious duty' 
and noted that `how we use them is up to us.' ''
    While that was written in 1999, it clearly rings true today and 
outlines the seriousness of the terrorist threat that we currently 
face. Madam Chairman, I look forward to continuing our work in this 
critical area and thank you again for holding this important and timely 
hearing.

    Senator Landrieu. Thank you, Senator Roberts. Senator 
Allard.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Madam Chair, I thank you. I want to just 
make a few brief comments if I may. I will not be able to stay, 
but I do appreciate your holding this hearing. I think it is 
important that we hold this hearing and develop a thorough 
understanding of terrorism and the terrorists themselves.
    I think this is an important issue and I thank you for 
calling this hearing. Dr. Post and Mr. Jenkins, I thank you for 
coming here today. I look forward to reviewing your testimony.
    In order to defeat terrorism in the most efficient manner 
and limit the risk to ourselves and our allies, it is important 
that we understand how terrorist organizations are put 
together, how they are maintained, and what motivates them. 
Armed with that kind of knowledge, we can dismantle them piece-
by-piece and achieve greater success in preventing them from 
organizing in the future.
    I think it is important that we defeat terrorism on all 
fronts. We are already seeing success in physically dismantling 
the al Qaeda network and the destruction of their financial 
backing, although we still have a long ways to go and I 
recognize that. I am sure over the next months and years we 
will see successes with other terrorist organizations as well.
    Your insight into the hearts and minds of the kind of 
people that can plan, coordinate, organize, and execute 
terrorist acts against innocent people is of the utmost 
importance. In particular, I am interested in what motivates an 
individual to commit suicide for a cause and what we can do to 
arrest that motivation. We will no doubt eliminate the current 
terrorist networks with time.
    However, we must remain vigilant against the growth of 
future organizations and we must find them and eliminate them 
early when they initially begin to form.
    Again, thank you for coming here today and I look forward 
to hearing and reading your testimony.
    Thank you, Madam Chairman.
    Senator Landrieu. Thank you, Senator Allard. I want to 
thank both of you for your leadership on this subject and 
really appreciate the support that you have shown. At this time 
I would also like to include in the record a statement 
submitted by Senator Carnahan.
    [The prepared statement of Senator Carnahan follows:]
              Prepared Statement by Senator Jean Carnahan
    Thank you, Madam Chair. First, I want to thank the chair and 
ranking member for arranging this hearing today. Usually, hearings 
focus on proposals for resolving problems facing our Nation. But as we 
enter this new and uncertain age, it is important that we first 
understand clearly what the problem is. Therefore, this hearing will 
help to define the gravest threats now facing our citizens, at home and 
abroad.
    Dr. Post and Mr. Jenkins are world-renown for their writings on 
terrorism. They advise policymakers and continue to inform the public 
of America's emerging vulnerabilities. Today, we ask that they help us 
to understand the workings and motivations of world terrorist 
organizations.
    It has already become a cliche to say that America was forever 
changed on September 11. But it is important to emphasize what the 
changes really involve. The country now faces an unpredictable enemy 
who is well-funded, and fully capable of launching horrible attacks 
against Americans at home and abroad. Our people have already shown 
tremendous resolve to support this Nation's campaign against such 
heinous acts. We must now examine what the full scope of this campaign 
will entail.
    Today's panelists have written on the nature of the country's war 
on terrorism. Dr. Jenkins has written about the importance of 
coordinating our criminal justice system with other elements of the 
government, particularly with the military.
    It is important to remember that this is not a conventional war. We 
cannot always expect to measure progress by military victories and land 
seizure. Instead, we must keep sight of the primary objective: to rout 
out and eradicate terrorism, at home and abroad.
    So, in spite of our recent successes on the battlefield in 
Afghanistan, we must also remain resolved to track down terrorists and 
bring them to justice--even after the war in central Asia is over. This 
will involve new covert tactics abroad, and new applications of 
domestic law at home. At the same time, we will balance this approach, 
by preserving fundamental civil liberties. This will take patience and 
resolve. But let there be no mistake. As President Bush declared, ``The 
battle is now joined on many fronts. We will not waiver; we will not 
tire; we will not falter; and we will not fail. Peace and freedom will 
prevail.''
    I hope that our hearing will help contribute to our country's 
preparation for this uncertain road ahead. We must remain realistic and 
try to understand the true nature of the terrorist threat.
    Thank you.

    Senator Landrieu. As the witnesses know, we have your 
testimony here, which is submitted in its entirety for the 
record, and it has been read and reviewed. So if you could, 
summarize in the time allocated of perhaps 10 minutes each, and 
then we will go into some questions from the members. Dr. Post, 
did you want to begin?

 STATEMENT OF JERROLD M. POST, M.D., PROFESSOR OF PSYCHIATRY, 
  POLITICAL PSYCHOLOGY AND INTERNATIONAL AFFAIRS, THE GEORGE 
                     WASHINGTON UNIVERSITY

    Dr. Post. Madam Chairman, Senator Roberts, I am really 
honored to be offered the opportunity to present to this 
subcommittee, and I must say I am particularly honored to share 
this opportunity with my long-time friend and colleague, Brian 
Jenkins. We have been working together on this topic for 
upwards of 30 years and that deserves emphasizing. This is not 
the first war of the 21st century. This is a war in some ways 
that has been going on since the Garden of Eden, but in its 
modern incarnation dates back to the early 1970s. We all 
remember the Munich Olympics and the capture of the Israeli 
Olympic Village by radical Palestinian terrorists in 1972.
    What I would like to do is walk you swiftly through the 
landscape of terrorism. I was asked in particular to address 
the question of what motivates terrorists, what makes them 
tick. I think this is an extremely important question. We 
cannot deter an adversary whom we do not understand. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    I think it is really important that we think of terrorisms 
in the plural rather than terrorism in the singular. I will 
walk you through this map. Across the top reading from right to 
left, somewhat more alliteratively, we have crazies, criminals, 
and crusaders.
    The first thing to emphasize is that terrorists are not 
seriously psychologically disturbed. They are not crazed 
fanatics. In fact, terrorist groups expel from their midst 
emotionally disturbed individuals, just as a Green Beret squad 
would. They represent a security risk.
    I will be focusing in particular on political terrorism. In 
the middle tier, regime or state terrorism refers to actions by 
the state against its own citizens, an example being the period 
of the so-called ``dirty wars'' in Argentina, where citizens 
who were dissident to the regime ``disappeared,'' and Germany 
in the 1930s. When Saddam Hussein used nerve gas against his 
own citizens, the Kurdish group in the north, this was an 
example of state CBW terrorism.
    State-supported terrorism, of course, has been and indeed 
should be a major preoccupation of our Government. Usually on 
the State Department list are Iran, Iraq, Syria, Libya, Sudan, 
North Korea, and Cuba. Especially as we have been increasingly 
concerned with the question of weapons of mass destruction 
terrorism, these states are particularly important to focus on 
because the facilitation of states to groups will be 
increasingly important.
    I will try to lead you into the lower tier, sub-state 
terrorism, and what makes these terrorists tick. At the lower 
left we have social revolutionary terrorism. This was 
particularly prominent during the early 1970s and 1980s. These 
are the terrorist groups steeped in Marxist-Leninism, very much 
on the wane since the end of the Soviet empire, but still 
present. We had the Japanese Red Army, still present; Columbian 
terrorists, such as the FARC, the Bader-Meinhof Gang, Red Army 
Faction, Red Brigades. In the United States we had our own 
group, the Weather Underground.
    Two groups down from that are the national-separatist 
terrorists. This again is a very important group, and in fact, 
in the beginning of terrorism these were the two main groups we 
were hearing from. As you pointed out in your introductory 
remarks, they would leave their calling cards. The nationalist-
separatist terrorists refer to the groups who are carrying on 
their family's missions in many ways. This refers to the 
secular nationalist terrorists, the radical Palestinian 
terrorists, the Provos--the Provisional Irish Republican Army 
of Northern Ireland, ETA in the Basque region, seeking a 
separate nation for their minority group within a nation.
    Now, if I could have the next slide. 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    What I have put up here is a generational map, just to make 
clear some of the distinguishing generational dynamics of 
terrorism. Across the top we have the parents' relationship to 
the regime, and down the left the youth's relationship to their 
parents. What the X in the upper left-hand cell says is that 
individuals who are loyal to a family that is loyal to the 
regime do not become terrorists.
    There are two boxes checked off and they are really quite 
different, in fact mirror images in some ways. In the lower 
left are individuals who are rebelling against the generation 
of their families. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    These are the social revolutionaries. The goal of the group 
is to destroy the world of their fathers. Their acts of 
terrorism are acts of retaliation for real and imagined hurts 
against the society of their parents. They are symbolically 
dissenting against parents loyal to the regime. One of the 
German terrorists said: ``This is a generation of corrupt old 
men who gave us Auschwitz and Hiroshima.''
    I am struck that there is a resemblance between these 
dynamics and those of at least some of the terrorists of al 
Qaeda, certainly Osama bin Laden in particular, who, in 
striking out against the Saudi Arabian royal family, was biting 
the hand that made his family so wealthy and ended up losing 
his Saudi citizenship as well as being expelled from his own 
family--surely, sibling rivalry run amok.
    If I go back to the preceding slide once again. 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Now, to the upper right-hand cell, individuals who are 
loyal to families who are disloyal to the regime or dissident 
to the regime or damaged by the regime. These are the 
nationalist-separatist terrorists. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    They are carrying on the mission of their parents. They've 
heard about it, be it in the coffee houses of Beirut, in the 
occupied territories, or in the pubs of Northern Ireland. They 
are taking action to retaliate for wounds caused to their 
families, to carry on the cause of their parents and 
grandparents.
    I had the opportunity with the Department of Justice to 
serve as an expert in the trial of the Abu Nidal terrorist 
tried for the skyjacking of the Egypt Air plane over Malta 
several years ago. This young man at age 8 was on his family 
farm in the West Bank when the 1967 war occurred and they were 
forced into a refugee camp. At that time his mother told him: 
``This is what happened to me when I was 8 years old during the 
1948 war when we were expelled from Haifa.''
    In school he was taught the way to become a man is to join 
the revolution and regain the lands of your parents and 
grandparents. When he committed his act of terrorism, it was 
the proudest moment of his life. He was carrying on the mission 
of his family. He was acting as a member of the revolution.
    If I could have the next slide. 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Now, in the early years of terrorism those two groups 
comprised the majority of the terrorists we were hearing from. 
As you pointed out, they left their calling cards. They were 
trying to influence the West. They were trying to call 
attention to the West of their cause. This produced a certain 
inhibition upon the extent of their violence because too 
horrific an act would lead to counterproductive effects within 
society.
    Thus, in considering the prospects of weapons of mass 
destruction terrorism, there is an inherent brake, or 
inhibition for these types of groups, who do not wish to 
alienate their constituents or society. We may recall in the 
aftermath of the Good Friday Accords when the Real IRA killed 
29 women and children in Omagh, there was such an outcry of 
protest within Northern Ireland, they ended up apologizing for 
their violence.
    There is a vivid distinction to be made between these 
groups trying to call attention to their acts and the group 
that I will spend most of my time on now, namely the religious 
extremist terrorists. Part of the reason they are so dangerous 
has to do with the very fact that they do not use a calling 
card. The terrorists of these groups are not trying to 
influence the West. They are trying to expel the West. They do 
not need a headline in the New York Times or a story running on 
CNN. Their audience is up above, and God already knows that 
they are responsible for that act.
    So this is a very dangerous group indeed. Moreover, they 
are ``true believers'' who have subordinated their own 
individuality to the group, and uncritically follow the 
directions of their charismatic leader. They believe what they 
do is not only not immoral, but becomes a religious command. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    On this slide, I have indicated the principal differences. 
Other terrorisms are interested in influencing contemporary 
society; fundamental religious terrorism wishes no dialogue 
with contemporary society. It wishes to eliminate modernizing 
influences. Radical Islamic terrorism particularly seeks to 
eliminate Western presence and influences. Moreover, these are 
hierarchical groups who have an absence of conflict as ``true 
believers'', because their acts of violence become sanctified 
by religious authority.
    Make no mistake about it, the seizure by Osama bin Laden of 
the issue of the Palestinian cause does not represent by any 
means his commitment to the peace process. Over the years, 
Osama bin Laden has treated with contempt Palestinian leaders, 
who have very much resented his lack of interest in the 
Palestinian cause. But, in fact, this resonates well within the 
area. But the only just solution for him would be expulsion of 
all, not just some, but of all, Israelis from the region and of 
Western influence from the area entirely.
    Now, let me spend a few moments responding to the questions 
raised in your opening comments concerning how suicide can be 
justified by these individuals in pursuit of these goals. 
Suicide is proscribed by the Koran. It is against the Koran: 
``Whoever kills himself with an iron weapon, then the iron 
weapon will remain in his hand and he will continually stab 
himself in his belly with it in the fire of hell eternally 
forever and ever.''
    We had the opportunity to interview, through foundation-
supported research, 35 incarcerated Middle Eastern terrorists, 
including 20 radical Islamist terrorists. We have some 
remarkable material from them. These were all commanders that 
we interviewed. One of them, when we asked him about this 
question of justifying suicidal terrorism in pursuit of their 
cause, got really quite angry and he said: ``This is not 
suicide; suicide is selfish, suicide is weak, suicide is mental 
illness. This is istishad.'' Istishad literally means martyrdom 
or self-sacrifice in the service of Allah.
    The commander of the group that led to the Netanyahu 
victory and the defeat of Prime Minister Perez is now serving 
46 consecutive life sentences in Israel for the 46 Israelis 
killed in the wave of suicide bombings he directed in 1996. In 
speaking to this question of how they justify this, he said: 
``Suicidal terrorism is the highest form of martyrdom. These 
are holy warriors for Allah, who will be given a higher place 
in paradise.''
    ``This is not murder,'' another one said. ``This is jihad. 
We are not interested in the bloodshed we cause. That is an 
unfortunate byproduct. For us the question is one of carrying 
on jihad.''
    Finally, we asked the question about the moral red line, 
whether there is any. For most terrorist groups, as I 
indicated, there is a moral red line; too much violence would 
be counterproductive. One of them responded: ``The more 
violence, the greater the fear in the public. The greatest 
violence possible is our goal. There is no moral red line.''
    Now, there is a distinction to be made between the suicide 
bombers in Israel and those in the United States. In speaking 
to this distinction, I want to indicate this will not exactly 
bring comfort to the subcommittee. In Israel we had a group, 
ages 17 to 22, unformed youth really, unemployed, uneducated, 
unmarried, persuaded by the seniors in the group, sometimes 
recruited only hours before, that their acts of suicidal 
terrorism would bring significance to their otherwise empty 
lives, would enroll them in the hall of martyrs, and would lead 
to prestige and monetary rewards for their family. Moreover, 
once they were recruited into the group, they were never left 
alone, lest they backslide.
    In contrast, in the al Qaeda terrorists we had a group of 
older individuals, highly educated in some cases, a number of 
them from rather comfortable Saudi and Egyptian backgrounds, 
and, most importantly, unlike those in Israel who were kept 
under lock and key until they committed the act, operating in 
free western society for a substantial period of time, exposed 
to the openness of our society, yet carrying within them like a 
laser beam their commitment to carry out their mission, giving 
their lives for the cause as they were taking thousands of 
casualties.
    We see them as true believers, fully formed adults who, not 
unlike a religious cult, had subscribed to the beliefs of 
radical Islam as articulated by Osama bin Laden, and if it was 
good for the cause they were willing to do this for the cause 
and their individuality did not count.
    Let me conclude with my four-pronged program for countering 
terrorism based on these psychological insights. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    One, to emphasize, terrorism is a vicious species of 
psychological warfare, waged with violence as communication. 
You do not counter psychological warfare with guns, missiles, 
and smart bombs. To be sure, that was quite necessary in the 
current campaign. You counter psychological warfare with 
psychological warfare. What does that mean? In the first place 
and quite importantly, inhibit potential terrorists from 
joining the organization in the first place. Once they're in 
that organization, the powerful group dynamics continue to 
reinforce their message of hatred.
    Two, cause dissension within the group.
    Three, facilitate exit from the group.
    Four, and particularly important, weaken support for the 
group. Right now Osama bin Laden is a romantic hero to many in 
his part of the world. How do we marginalize his group, how do 
we delegitimate his leadership?
    It is important to emphasize that radical Islam right now 
represents a major danger in terms of their enmity of the West, 
and for every terrorist we eliminate there will be 10 more 
ready to take their place. When children are taught to hate, 
when hatred is ``bred in the bone'', it is very difficult to 
counter. That means it is necessary to be countering the quite 
negative image of America being taught in the radical 
madrassas, and being preached in the radical mosques, and 
emphasize the importance of moderate Islamic clerics countering 
the message of extremism.
    I thank you.
    [The prepared statement of Dr. Post follows:]
             Prepared Statement by Jerrold M. Post, M.D.\1\
---------------------------------------------------------------------------
    \1\ Professor of Psychiatry, Political Psychology and International 
Affairs and Director, Political Psychology Program, The George 
Washington University, Washington, D.C. 20052 (202) 994-7386
---------------------------------------------------------------------------
the mind of the terrorist: individual and group psychology of terrorist 
                                behavior
The Spectrum of Terrorism
    Terrorism is not a homogeneous phenomenon. There is a broad 
spectrum of terrorist groups and organizations, each of which has a 
different psychology, motivation and decisionmaking structure. Indeed, 
one should not speak of terrorist psychology in the singular, but 
rather of terrorist psychologies. Figure 1 depicts the broad spectrum 
of terrorist types. In the top tier of the graphic, we differentiate 
political terrorism from criminal and pathological terrorism. Studies 
of political terrorist psychology \2\ do not reveal severe psychiatric 
pathology. In fact, political terrorist groups do not permit 
emotionally disturbed individuals to join as they represent a security 
risk. Seriously disturbed individuals tend to act alone.
---------------------------------------------------------------------------
    \2\ Post, J. ``Terrorist Psycho-Logic: Terrorist Behavior as a 
Product of Psychological Forces'' in Reich, W. (ed.) Origins of 
Terrorism: Psychologies, Ideologies, Theologies, States of Mind 
Cambridge: Cambridge Univ. Press, 1993.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Considering the diversity of causes to which terrorists are 
committed, the uniformity of their rhetoric is striking. Polarizing and 
absolutist, it is a rhetoric of ``us versus them.'' It is rhetoric 
without nuance, without shades of gray. ``They'', the establishment, 
are the source of all evil in vivid contrast to ``us,'' the freedom 
fighters, consumed by righteous rage. If ``they'' are the source of our 
problems, it follows ineluctably in the special psycho-logic of the 
terrorist, that ``they'' must be destroyed. It is the only just and 
moral thing to do. Once one accepts the basic premises, the logical 
reasoning is flawless.
    What accounts for the uniformity of the terrorists' polarizing 
absolutist rhetoric? My own comparative research on the psychology of 
terrorists does not reveal major psychopathology, agreeing with the 
finding of Crenshaw ``the outstanding common characteristic of 
terrorists is their normality.'' Her studies of the FLN in Algeria in 
the 1950s found the members to be basically normal. Nor did Beskin find 
members of the IRA to be emotionally disturbed. In a review of the 
Social Psychology of Terrorist Groups, McCauley and Segal conclude that 
``the best documented generalization is negative; terrorists do not 
show any striking psychopathology.''
    Nor does a comparative study reveal a particular psychological 
type, a particular personality constellation--a uniform terrorist mind. 
But while there is a diversity of personalities attracted to the path 
of terrorism, an examination of memoirs, court records, and, on rare 
occasions, interviews, suggests that individuals with particular 
personality traits and personality tendencies are drawn 
disproportionately to terrorist careers--in particular, frustrated 
individuals, who tend to externalize, seeking an external cause for 
their difficulties. Unable to face his own inadequacies, the individual 
with this personality style needs a target to blame and attack for his 
own inner weakness, inadequacies and lack of success. Such individuals 
find the polarizing absolutist rhetoric of terrorism extremely 
attractive. ``It's not us--it's them.'' ``They are the cause of our 
problems'' provides a psychologically satisfying explanation for what 
has gone wrong in their lives. A great deal has gone wrong in the lives 
of individuals who are drawn to the path of terrorism. One study by 
German social scientists concluded that the group of terrorists whose 
lives they had studied demonstrated a pattern of failure both 
educationally and vocationally. Viewing the terrorists as ``advancement 
oriented and failure prone,'' they characterized the terrorist career 
as ``the terminal point of a series of abortive adaptation attempts.''
    To summarize the foregoing, terrorists as individuals for the most 
part do not demonstrate serious psychopathology. While there is no one 
personality type, it is the impression that there is a disproportionate 
representation among terrorists of individuals who are aggressive and 
action-oriented and place greater than normal reliance on the 
psychological mechanisms of externalization and splitting. There is 
suggestive data indicating that many terrorists come from the margins 
of society and have not been particularly successful in their personal, 
educational and vocational lives. The combination of the personal 
feelings of inadequacy with the reliance on the psychological 
mechanisms of externalization and splitting make especially attractive 
a group of like-minded individuals whose credo is ``It is not us; it is 
them. They are the cause of our problems.'' It therefore is not only 
not immoral to strike out at them; it becomes a moral obligation. 
Terrorism is not a consequence of individual psychological abnormality. 
Rather it is a consequence of group or organizational pathology that 
provides a sense-making explanation to the youth drawn to these groups.
    At the middle tier, state terrorism refers to the state turning its 
resources--police, judiciary, military, secret police, etc.--against 
its own citizenry to suppress dissent, as exemplified by the ``dirty 
wars'' in Argentina. When Saddam Hussein used nerve gas against his own 
Kurdish citizens, this was an example of state CBW terrorism. State-
supported terrorism is of major concern to the United States. Currently 
on the list annually distributed by the Department of State are Iran, 
Iraq, Syria, Libya, Sudan, North Korea and Cuba. In these situations, 
when states are acting through terrorist groups, fearing retaliation, 
the decisionmaking of the state leadership will be a significant 
constraint upon the group acting under their influence or control.
    In the lower tier, a diverse group of sub-state terrorist groups 
are specified: social-revolutionary terrorism, nationalist-separatist 
terrorism, right-wing terrorism, religious extremist terrorism, 
subsuming both religious fundamentalist terrorism and terrorism 
perpetrated by non-traditional religious groups (such as Aum 
Shinrikyo), and single issue terrorism.
Social Revolutionaries
    Social-revolutionary terrorism, also known as terrorism of the 
left, includes those acts perpetrated by groups seeking to overthrow 
the capitalist economic and social order. Social revolutionary groups 
are typified by the European ``fighting communist organizations'' 
active throughout the 1970s and 1980s (e.g., the Red Army Faction in 
Germany and the Red Brigades in Italy). While social-revolutionary 
terrorist groups have experienced a significant decline over the last 
two decades, paralleling the collapse of Communism in Europe and the 
end of the Cold War, social-revolutionary terrorism and insurgency are 
still underway, as exemplified by the Japanese Red Army (JRA), Sendero 
Luminosa (the Shining Path), Movement Revolutionaire Tupac Amaru (MRTA) 
in Peru, several Columbian terrorist groups who are also associated 
with narco-terrorism, and Ejercito Zapatista de Liberacion Nacional 
(EZLN) of Chiapas, Mexico.
    These are complex organizations, however, not groups per se. The 
decisionmaking locus is outside of the action cells. In these secret 
organizations, there is a tension between security and communication. 
This leads to rather more decisionmaking latitude for the action cells 
than might be present in a more open organization. Thus policy 
guidelines may be laid down, but specific planning concerning the 
target and the tactics has been delegated to the group.
    Insofar as these groups are seeking to influence their society, 
they would be significantly constrained from indiscriminate acts that 
cause significant casualties among their own countrymen, or cause 
negative reactions in their domestic and international audiences. But 
discriminate acts against government or symbolic capitalist targets 
could be rationalized by these groups.
Nationalist-Separatists
    Nationalist-separatist terrorism, also known as ethno-nationalist 
terrorism, includes those groups fighting to establish a new political 
order or state based on ethnic dominance or homogeneity. The Irish 
Republican Army, the Liberation Tigers of Tamil Eelam (LTTE) of Sri 
Lanka, the Basque Fatherland and Liberty (ETA) in Spain, and radical 
Palestinian groups such as the Abu Nidal Organization and the 
Palestinian Front for the Liberation of Palestine-General Command 
(PFLP-GC) are prominent examples. Nationalist-separatist terrorists are 
usually attempting to garner international sympathy for their cause and 
to coerce the dominant group. Thus ETA is attempting to pressure Spain 
to yield to its demands for an independent Basque state. These causes 
of the Nationalist-separatist terrorist groups and organizations are 
particularly intractable, for the bitterness and resentment against the 
dominant ethnic group has been conveyed from generation to 
generation.\3\ Hatred has been ``bred in the bone.'' In these 
organizations, the young revolutionaries are often extolled as heroes 
within their communities, for their mission reflects their people's 
cause. Among incarcerated Palestinian terrorists my group has been 
interviewing with support from the Smith-Richardson Foundation, the 
regularity with which Palestinian youth chose to enter these groups was 
striking. The responses of the interview subjects indicated, in sum, 
``Everyone was joining. Everyone was doing it. It was the thing to 
do.'' They have heard the bitterness of their parents and grandparents 
in the coffee houses in Jordan and the occupied territories, or the 
pubs of Northern Ireland, about the economic injustices they have 
suffered.
---------------------------------------------------------------------------
    \3\ Post, J. ``Terrorist Psycho-Logic: Terrorist Behavior as a 
Product of Psychological Forces,'' in Reich, W. (ed.) Origins of 
Terrorism. Cambridge: Cambridge University Press, 1990, pp. 25-40.
---------------------------------------------------------------------------
    Nationalist-separatist groups operating within their nation are 
particularly sensitive to the responses of their internal constituency, 
as well as their international audience. This provides a constraint 
against acts so violent or extra-normal as to offend their 
constituents, as exemplified by the attack by the Real IRA in Omagh in 
1998 in which 29, mostly women and children, were killed. The resulting 
uproar from their Irish constituents was so extreme, that the Real IRA 
apologized and forswore future violence.
    As reflected in Figure 2, the generational dynamics of these 
nationalist-separatist terrorists are the very opposite of the social-
revolutionary terrorists discussed earlier. They are carrying on the 
mission of their parents and grandparents who have been damaged by, or 
are disloyal to, the regime. They are loyal to families that are 
disloyal to the regime. Their acts of terrorism are acts of vengeance 
against the regime that damaged their families.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    This is in vivid contrast to the social-revolutionary terrorists 
who are rebelling against the generation of their parents who are loyal 
to the regime. They are leading an underground life. The social-
revolutionary terrorists through their acts of terrorism are striking 
out at the generation of their parents. They are disloyal to the 
generation of their families that is loyal to the regime. Their acts of 
terrorism are acts of revenge against the generation of their family, 
which they hold responsible for their failures in this world. They are 
striking out against their enemies--real and imagined--in their 
parents' generation. A member of the Red Army Faction in West Germany 
referred to his parents' generation as ``the generation of corrupt old 
men who gave us Auschwitz and Hiroshima.'' They are seeking to heal 
their inner wounds by attacking the outside enemy.
Religious Extremists
    Religious extremist terrorism is characterized by groups seeking to 
maintain or create a religious social and political order and includes 
two types of groups and organizations: those adhering to a radical 
fundamentalist interpretation of mainstream religious doctrines as well 
as non-traditional religious groups representing ``new religions,'' 
such as Aum Shinrikyo, responsible for the 1995 sarin nerve gas attack 
on the subway system in Tokyo, Japan.
Religious Fundamentalist Terrorism
    In the 1970s and 1980s, most of the acts of terrorism were 
perpetrated by nationalist-separatist and social-revolutionary 
terrorists, who wished to call attention to their cause and accordingly 
would regularly claim responsibility for their acts. They were seeking 
to influence the West and the establishment. But in the past decades, 
no responsibility has been claimed for upwards of 40 percent of 
terrorist acts. We believe this is because of the increasing frequency 
of terrorist acts by radical religious extremist terrorists. They are 
not trying to influence the West. Rather the radical Islamist 
terrorists are trying to expel the secular modernizing West. They do 
not need recognition by having their name identified in a New York 
Times headline or on a story on CNN. They are ``killing in the name of 
God'' and don't need official notice; after all, God knows.
    Traditional groups include Islamic, Jewish, Christian and Sikh 
radical fundamentalist extremists. In contrast to social-revolutionary 
and nationalist-separatist terrorists, for religious fundamentalist 
extremist groups, the decisionmaking role of the preeminent leader is 
of central importance. For these true believers, the radical cleric is 
seen as the authentic interpreter of God's word, not only eliminating 
any ambivalence about killing, but endowing the destruction of the 
defined enemy with sacred significance.
    The radical cleric, whether ayatollah, rabbi or priest, has used 
sacred text to justify killing in the name of God. Ayatollah Khomeini 
employed a radical interpretation of the Quo'ran to provide the 
ideological foundation for his Islamic revolution, and selected verses 
to justify terrorist extremity, such as ``And slay them where ye catch 
them, and turn them out from where they have turned you out . . . Such 
is the reward of those who suppress the faith (2:190-193).'' In a radio 
broadcast of June 5, 1983, Khomeini exhorted his followers: ``With 
humility toward God and relying on the power of Islam, they should cut 
the cruel hands of the oppressors and world-devouring plunderers, 
especially the United States, from the region.'' To those who died 
fighting this holy cause, Khomeini assured a higher place in paradise. 
In inciting his followers during the Iran-Iraq war, he rhetorically 
asked: ``Why don't you recite the sura of killing? Why should you 
always recite the sura of mercy? Don't forget that killing is also a 
form of mercy.'' He and his clerical followers regularly found 
justification for their acts of violence in the Qur'anic suras calling 
for the shedding of blood.\4\
---------------------------------------------------------------------------
    \4\ Robins, R. and Post, J. Political Paranoia: The Psychopolitics 
of Hatred. New Haven, CT: Yale Univ. Press, 1997, pp 153-154.
---------------------------------------------------------------------------
    These organizations are hierarchical in structure; the radical 
cleric provides interpretation of the religious text justifying 
violence, which is uncritically accepted by his ``true believer'' 
followers, so there is no ambivalence concerning use of violence, which 
is religiously commanded. These groups are accordingly particularly 
dangerous, for they are not constrained by Western reaction, indeed 
often wish to expel secular modernizing influences. They have shown a 
willingness to perpetrate acts of mass casualty terrorism, as 
exemplified by the bombings of the Khobar Towers in Saudi Arabia, the 
World Trade Center in the U.S., the U.S. embassies in Kenya and 
Tanzania, the U.S.S. Cole, and the mass casualty terrorism on a scale 
never seen before in the coordinated attacks on the World Trade Center 
in New York and the Pentagon in Washington, D.C. Osama bin Laden, 
responsible for these events, has actively discussed the use of weapons 
of mass destruction in public interviews.
    While not a religious authority, Osama bin Laden is known for his 
piety, and has been granted the title emir. Like Khomeini, Osama bin 
Laden regularly cites verses from the Koran to justify his acts of 
terror and extreme violence, employing many of the same verses earlier 
cited by Khomeini. Consider this extract from the February 1998 Fatwa, 
Jihad Against Jews and Crusaders, World Islamic Front Statement:

        In compliance with God's order, we issue the following fatwa to 
        all Muslims:

        The ruling to kill the Americans and their allies--civilians 
        and military--is an individual duty for every Muslim who can do 
        it in any country in which it is possible to do it, in order to 
        liberate the al-Aqsa Mosque and the holy mosque [Mecca] from 
        their grip, and in order for their armies to move out of all 
        the lands of Islam, defeated and unable to threaten any Muslim. 
        This is in accordance with the words of Almighty God, ``and 
        fight the pagans all together as they fight you all together,'' 
        and ``fight them until there is no more tumult or oppression, 
        and there prevail justice and faith in God.'' We--with God's 
        help--call on every Muslim who believes in God and wishes to be 
        rewarded to comply with God's order to kill the Americans and 
        plunder their money wherever and whenever they find it.

    Note it is not Osama bin Laden who is ordering his followers to 
kill Americans. It is God! Osama bin Laden is the messenger, relaying 
the commands of God, which are justified with verses from the Koran.
    While from the theoretical perspective of ``pure culture'' 
religious fundamentalist terrorism, there would be no constraint upon 
these groups, in fact, some of the radical Islamist groups, such as 
Hamas and Islamic Jihad, responsible for most of the suicide bombings 
in Israel, do in fact have domestic constituencies which would provide 
a measure of constraint against indiscriminate mass casualty acts.
    But as the events of September 11 make clear, for the al Qaeda 
organization, there is no constraint against mass casualty terrorism. 
It is the willingness, indeed the goal to take as many casualties as 
possible that is the dynamic of the ``true believers'' of the al Qaeda 
group under the destructive charismatic leadership of Osama bin Laden 
that places this group at high risk to move into the area of CBRN 
terrorism, for they have already crossed the threshold of mass 
casualties using conventional terrorism, demonstrating a willingness to 
perpetrate super-terrorism.
    In his prepared statement released after the U.S./British attack on 
Taliban military targets on the night of 7 October, bin Laden 
emphasized the climate of terror in the United States: ``America has 
been filled with fear from North to South, from East to West, thank 
God.'' He ended his statement by asserting his intent to keep the 
United States in a continuing state of insecurity: ``America and those 
who live in America won't dream of having security before we have it in 
Palestine and all infidel armies depart from the land of Muhammad.''
    While many drawn to the path of religious fundamentalist terrorism 
are poor and uneducated, for some of these terrorists there are 
suggestive similarities to the generational dynamics of the social-
revolutionary terrorists. A number of the 19 hijackers were well 
educated and came from comfortable middle class Saudi families. Osama 
bin Laden himself is the most striking example of these generational 
dynamics. He is the 17th of 25 sons of a multi-billionaire Saudi 
construction magnate, whose financial empire and wealth came from a 
special relationship with the Saudi royal family. When he railed at the 
corruption of the Saudi royal family and their lack of fidelity to 
Islam in permitting the American military to establish a base on holy 
Saudi land, he was striking out at the source of his family wealth, 
leading not only to his being expelled from Saudi Arabia, but also 
severely damaging his family, who also turned against him.
Non-Traditional Religious Extremist Groups
    Non-traditional religious extremist groups, such as Aum Shinrikyo, 
must also be considered. These generally closed cults are in a struggle 
for survival against a demonized enemy that must be destroyed. While 
the majority of millennial apocalyptic cults are waiting for the 
millennium, some religious belligerents are seeking to force the end, 
and, in the case of Aum Shinrikyo, to precipitate the final struggle. 
Charismatic leaders of closed cults, like Shoko Asahara, the leader of 
Aum Shinrikyo, who see themselves in a God-like role, a self-perception 
rewarded by the God-like reverence with which they are treated by their 
followers, can become obsessed with power. Asahara's fascination with 
high technology led him to recruit nuclear physicists, nuclear 
engineers, chemists, and microbiologists, simultaneously exploring 
nuclear, biological and chemical weapons. Especially for closed 
religious cults, the dynamic is one of a charismatic leader who holds 
total sway over his followers. What he declares is moral and required 
is moral and required. The followers yield their individual judgment to 
the leader and become deskilled, acting as if they have no independent 
critical faculties of their own. No doubt or doubters are permitted in 
these powerful hermetically sealed closed organizations. The price for 
defection in Aum Shinrikyo was death. This too had a high-tech aspect 
to it, for apprehended defectors were incinerated in an industrial 
microwave oven, ensuring the conforming loyalty of witnessing members.
    Asahara, in mounting WMD programs, was attempting to precipitate 
the final apocalyptic conflict. But Aum Shinrikyo is quite unusual 
within the spectrum of millennial cults, for most such cults are not 
religious belligerents seeking to precipitate the apocalypse, as was 
the case with Aum, but rather tend to withdraw from society, passively 
awaiting the ``final days.''
Right-Wing Groups
    Right-wing terrorism includes those groups seeking to preserve the 
dominance of a threatened ethnic majority or to return society to an 
idealized ``golden age'' in which ethnic relations more clearly favored 
the dominant majority. These groups generally espouse fascist 
ideologies, including racist, anti-Semitic, and anti-government 
``survivalist'' beliefs. These groups in the United States fear the 
Federal Government, which they see as contributing to the decline of 
the majority's dominance. In their view, the government is dominated by 
Jews--hence ZOG, the Zionist Occupied Government--and accordingly is 
illegitimate.
    Because of this dehumanization of their enemies, discriminate 
attacks on target groups, such as blacks, or, in Europe, on enclaves of 
foreign workers, are justified by their ideology. Because of their 
delegitimation and dehumanization of the government, discriminate 
attacks on government facilities are certainly feasible by such groups, 
including attacks on the seat of the Federal Government, Washington, 
D.C., as represented in The Turner Diaries.
Right-Wing Community of Belief
    Many individuals hew to a right-wing ideology, but do not belong to 
a formal group or organization per se. Timothy McVeigh is an exemplar 
of such individuals seeking to cause mass casualty terrorism, using 
conventional weapons. McVeigh was enthralled by The Turner Diaries, 
which he sold below cost at gun shows. At the time of his capture, 
glassined, highlighted pages from this bible of the radical right were 
found in his car.
    The role of the internet in propagating the ideology of right-wing 
extremist hatred is of concern, for an isolated individual consumed by 
hatred can find common cause in the right-wing web sites, feel he is 
not alone, and be moved along the pathway from thought to action, 
responding to the extremist ideology of his virtual community.
Group and Organizational Dynamics
    The differences between ``nationalist-separatist'' terrorists and 
``anarchic-ideologues'' in terms of their social origins and 
psychosocial dynamics have already been described. Their group dynamics 
differ significantly as a consequence. The ``nationalist-separatist'' 
terrorists are often known in their communities and maintain 
relationships with friends and family outside of the group. They can 
move in and out with relative ease. In contrast, for the ``anarchic-
ideologues'' the decision to cross the boundary and enter the 
underground illegal group is an irrevocable one, what the Germans call 
``Der Sprung'' (The Leap). As one German terrorist wryly observed, 
``The only way out of the terrorist group is feet first--by way of the 
graveyard.'' Group pressures are especially magnified for the 
underground group so that the group is the only source of information 
and the only source of confirmation, and, in the face of external 
danger and pursuit, the only source of security. Religious extremist 
groups function on the basis of an underground psychology as well.
    The resultant group pressure-cooker produces extremely powerful 
forces. In particular, there are:
    1. Pressures to conform, and
    2. Pressures to commit acts of violence.
Pressures to Conform
    Given the intensity of the need to belong, the strength of the 
affiliative needs, and, for many, the as yet incomplete sense of 
individual identity, there is a tendency to submerge their own 
identities into the group, so that a kind of group mind emerges. The 
group cohesion which emerges is magnified by the external danger which 
tends to reduce internal divisiveness in unity against the outside 
enemy. Doubt of the legitimacy of the goals and actions of the group 
are intolerable to such a group. The individual who questions a group 
decision risks the wrath of the group and possible expulsion. Indeed, 
the fear is even more profound, for, as Baumann has stated, withdrawal 
was impossible ``except by way of the graveyard.'' The way to get rid 
of doubt is to get rid of the doubters. Extreme pressure to conform has 
been reported by all who have discussed the atmosphere within the 
group. What an interesting paradox, that these groups whose ethos is so 
intensely against the authorities should be so authoritarian.
    The group ideology plays an important role in supporting this 
conformity inducing group environment. When questions are raised, the 
absolutist ideology becomes the intellectual justification. Indeed, in 
effect the ideology becomes the scriptures for the group's morality.
    Questions have often been raised as to how individuals socialized 
to a particular moral code could commit such violent anti-social acts. 
Insofar as the individual submerges his own identity into the group, 
the group's moral code becomes the individual's moral code. As Crenshaw 
has observed, ``the group as selector and interpreter of ideology, is 
central.'' What the group, through its interpretation of its ideology, 
defines as moral is moral, and becomes the authority for the compliant 
member. If the ideology indicates that ``they are responsible for our 
problems'', to destroy them is not only viewed as justified but can be 
seen to be a moral imperative.
The Pressure to Commit Acts of Violence
    In attempting to clarify whether acts of political violence are 
chosen as a willful strategy or are products of psychological forces, 
it is of central importance to evaluate the goal of the act of 
violence. The rationalist school, as espoused by Crenshaw, would aver 
that in an unequal political struggle, acts of political terrorism 
become an equalizer. These acts of political violence call forceful 
attention to their legitimate grievances and have an impact on a much 
wider audience than the immediate target of the violence. Indeed, as 
Schmid has usefully clarified, it is very important to differentiate 
between the target of the violence and the target of influence. But 
there is an implicit assumption in this line of reasoning that the 
political violence is instrumental, a tactic to achieve the group's 
political goals, to help it achieve its cause.
    The position argued in this paper that political violence is driven 
by social psychological forces follows a different line of reasoning. 
It does not view political violence as instrumental, as a means to an 
end, but as the end itself. The cause is not the cause. The cause, as 
codified in the group's ideology, according to this line of reasoning, 
becomes the rationale for acts the terrorists are driven to commit. 
Indeed, the central argument of this position is that individuals 
become terrorists in order to join terrorist groups and commit acts of 
terrorism.
    That is surely an extreme statement, but since we are discussing 
political extremism, perhaps that excess can be forgiven. If the cause 
were indeed the cause, should not its achievement lead to the 
dissolution of the terrorist groups committing violent acts in its 
name? Consider the Basque separatist movement. Many would say they have 
achieved a significant proportion of their goals. While not a separate 
nation to be sure, the degree of autonomy they have achieved is 
remarkable. Why does ETA not clap its collective hands in satisfaction, 
declare victory, dissolve the organization, and go back to work in the 
region's factories? Yet ETA roars on. Its goals are absolutist, and 
nothing less that total victory will suffice, say its leaders, although 
many Basque politicians feel their actions are counterproductive.
    In part, this has to do with the difficulty individuals who 
externalize their difficulties, and have sought an external target to 
attack, have in giving up their espoused cause. Before joining the 
group, he was alone, not particularly successful. Now he is engaged in 
a life and death struggle with the establishment, his picture is on 
``Most Wanted'' posters. He sees his leaders as internationally 
prominent media personalities. Within certain circles, he is lionized 
as a hero. He travels first class, and his family is provided for 
should his acts of heroism lead to his death as a martyr to the cause. 
Surely this is the good life, not easily relinquished.
    If the major definition of authenticity is ``revolutionary 
heroism'', this has important implications for the outcomes of debates 
and personal rivalries within the group. The advocate of prudence and 
moderation is quickly likely to lose his position of leadership to a 
bolder individual committed to continue the struggle. This suggests a 
dynamic within the group pressing for the perpetuation of violence and 
leading toward ever-riskier decisions.
Terrorist Psychology: Implications for Counterterrorist Strategy
    If these conclusions concerning the individual, group and 
organizational psychology of political terrorism are valid, what are 
the implications for anti-terrorist policy? (It is interesting to 
observe how passionately arguments are waged concerning 
counterterrorist policies given the relative lack of reliable 
understanding of terrorist psychology.) This emphasizes that this is no 
mere academic exercise, for after all, policies designed to deter 
terrorists from their acts of terrorism should be based on an 
understanding of ``what makes terrorists tick.''
    Since terrorisms differ in their structure and dynamics, 
counterterrorist policies should be appropriately tailored. As a 
general rule, the smaller and more autonomous the group, the more 
counterproductive is external force. When the autonomous cell comes 
under external threat, the external danger has the consequence of 
reducing internal divisiveness and uniting the group against the 
outside enemy. The survival of the group is paramount because of the 
sense of identity it provides. Terrorists whose only sense of 
significance comes from being terrorists cannot be forced to give up 
terrorism, for to do so would be to lose their very reason for being. 
To the contrary, for such individuals violent societal counter-
reactions reaffirm their core belief that ``it's us against them and 
they are out to destroy us.'' A tiny band of insignificant individuals 
has been transformed into a major opponent of society, making their 
``fantasy war'', to use Ferracuti's apt term, a reality. One can indeed 
make the case that left to their own devices, these inherently unstable 
groups will self-destruct.
    Similarly, for terrorist organizations for which violence is 
defined as the only legitimate tactic for achieving their espoused 
goals, outside threat and a policy of reactive retaliation cannot 
intimidate the organizational leadership into committing organizational 
suicide and ceasing to exist. For that is what ceasing committing acts 
of political violence would be if those acts were the sole self-
definition.
    For complex organizations dedicated to a cause, such as Basque 
separatism, where an illegal terrorist wing operates in parallel with a 
legal political wing as elements of a larger loosely integrated 
organization, the dynamics and the policy implications are again 
different. In such circumstances, if the overall organizational goals--
in this case Basque separatism--are threatened by societal reactions to 
terrorism, one can make a case that internal organizational constraints 
can operate to constrain the terrorist wing. However, insofar as the 
terrorist group is not fully under political control, this is a matter 
of influence and partial constraint, for as has been noted earlier, ETA 
has its own internal dynamics and continues to thrive despite the 
significant degree of separatism already achieved.
    For state-supported and directed terrorist groups, the terrorist 
group is in effect a paramilitary unit under central governmental 
control. In this situation, the individual, group and organizational 
psychological considerations discussed thus far are not especially 
relevant. The target of the anti-terrorist policy in this circumstance 
is not the group per se but the chief of state and the government of 
the sponsoring state. Since the survival of the state and national 
interests are the primary values, there is a rational case to be made 
that retaliatory policies can have a deterring effect, at least in the 
short-term. But even in this circumstance, to watch the children in the 
camps in the aftermath of bombing attacks shaking their fists in rage 
suggests such tactics are contributing to rising generations of 
terrorists.
    Just as political terrorism is the product of generational forces, 
so too it is here for generations to come. When hatred is bred in the 
bone, and passed from generation to generation, it does not yield 
easily to peace talks. There is no short-range solution to the problem 
of terrorism. Once an individual is in the pressure cooker of the 
terrorist group, it is extremely difficult to influence him. In the 
long run, the most effective anti-terrorist policy is one that inhibits 
potential recruits from joining in the first place, for once an 
individual is in the grip of the terrorist group the power of the group 
and organizational psychology will increasingly dominate his 
psychology.
    Political terrorism is not only a product of psychological forces, 
its central strategy is psychological. For political terrorism is, at 
base, a particularly vicious species of psychological warfare. It is 
violence as communication. Up until now, the terrorists have had a 
virtual monopoly on the weapon of the television camera as they 
manipulate their target audience through the media. Countering the 
terrorists' highly effective media-oriented strategy through more 
effective dissemination of information and public education must be key 
elements of a proactive program.
    As important as it is to inhibit potential terrorists from joining, 
so too it is important to facilitate terrorists leaving. The powerful 
hold of the group has been described in detail. By creating pathways 
out of terrorism, that grip can be reduced. Amnesty programs modeled 
after the highly effective program of the Italian government can 
usefully contribute to that goal.
    Reducing support for the group--both in its immediate societal 
surroundings and in the nation at large--are further long-range 
programs to foster.
    Terrorists perpetuate their organizations by shaping the 
perceptions of future generations of terrorists. Manipulating a 
reactive media, they demonstrate their power and significance and 
define the legitimacy of their cause. To counter them, effective 
education and dissemination of objective information is required.
    One does not counter psychological warfare with smart bombs and 
missiles, although they can certainly play a useful role in a military 
campaign against harboring states. One counters psychological warfare 
with psychological warfare. In the long run, the most effective ways of 
countering terrorism are to:
    1. Inhibit potential terrorists from joining the group. Security 
alone cannot accomplish this. Alienated youth must be able to envisage 
a future within the system that promises redress of long-standing 
economic and social inequity and come to believe that political 
activism can lead to their finding a pathway to these goals. Otherwise, 
striking out violently in despair will continue to seem like the only 
course available.
    2. Produce dissension within the group. The groups are virtual hot-
houses of tensions and rivalries. Active measures are required to 
magnify these tensions and pressures.
    3. Facilitate exit from the group. Once a terrorist has become a 
member of a group and committed terrorist acts, he is a wanted 
criminal, and it can seem he has ``no way out.'' Yet, as noted above, 
with the pentiti program in Italy, a similar program in the Basque 
region, and the so-called ``super-grass'' program in Northern Ireland, 
where reduced sentences or amnesty is offered for cooperation with the 
authorities, in effect a ``protected witness'' program, including for 
the Basque region plastic surgery and resettlement in Latin America, 
this can not only facilitate exit but also can produce dissension 
within the group as well.
    4. Reduce support for the group. This is particularly important, as 
important as inhibiting potential recruits from joining in the first 
place, indeed contributing to this goal. Thus the group or organization 
must be marginalized, its leader delegitimated. Osama bin Laden at the 
present is a romantic hero to many alienated youth in the Islamic 
world, his organization al Qaeda a highly attractive option to 
consider. An effective strategic communication program will 
increasingly marginalize al Qaeda as an aberrant extremist group that 
is contrary to mainstream Islam, and will depict bin Laden not as a 
heroic figure, but as a self-consumed individual whose extreme actions 
damage all of Islam and the future of aspiring Muslim youth.
    All of these goals are components of a strategic communication 
process that must be a central component of our anti-terrorist policy. 
This is not a policy that will swiftly end terrorism, but a process 
that must be put in place. Just as many of the attitudes that have made 
the path of terrorism attractive to alienated youth have taken place 
over decades, it will require decades to reduce the attractiveness of 
terrorism for those who have been raised in a climate dominated by 
hopelessness and despair, with hatred bred in the bone, so that 
extremism and violence have increasingly come to be seen as the only 
course.

    Senator Landrieu. Thank you, Dr. Post, for that excellent 
testimony. Your descriptions are rather chilling, but very 
instructive to us, and we most appreciate your work. Mr. 
Jenkins.

STATEMENT OF BRIAN M. JENKINS, SENIOR ADVISOR TO THE PRESIDENT, 
                        RAND CORPORATION

    Mr. Jenkins. Senator Landrieu, members of the subcommittee, 
thank you very much for giving me the opportunity to address 
this important subject.
    When I entered the room I had planned on summarizing my 
written testimony. I discarded that idea as I listened to the 
questions that both you and Senator Roberts raised in your 
opening statements. Let me try instead to address those 
questions--people can read the written testimony later. Let us 
focus on some of the topics that you raised.
    I would like to emphasize one point. When we talk about the 
psychology of terrorism, it is not simply the psychology of the 
terrorists we are talking about. Terrorism is a phenomenon 
which is intended to have psychological effects on the victims, 
on the target audiences of that terrorist activity itself; we 
have to understand our own psychology as well as that of the 
terrorist.
    I mention this because despite the high level of anxiety on 
the part of the American people, I still do not think that we 
fully comprehend the seriousness of the threats we currently 
face or the longer-term consequences of the trends that were so 
dramatically illustrated on September 11.
    For me to say this is a departure, as Dr. Post can attest, 
because frequently in my essays over the years I have been the 
skeptic offering counterarguments to any suggestion that there 
is an inexorable progress from smaller scale terrorism through 
truck bombs up into weapons of mass destruction. I still do not 
believe that there is an inexorable progression, but I must say 
the confidence with which I am willing to say that such an 
escalation is not likely is eroding fairly quickly. The 
revision in my views has to do with what I think are 
fundamental changes in mindset we have seen in recent years.
    Senator Landrieu, you mentioned at the outset the need to 
understand the adversary as thoroughly as we understood the 
adversary during the Cold War. We do not have--despite all of 
our intelligence efforts, despite the efforts of our behavioral 
analysts--right now the operational code of the Politburo to 
apply to bin Laden's group. It is something we are working on, 
but we do not have it.
    We can infer a great deal from terrorists' actions and from 
their words that give us a rough version of their mindset and 
decision-making. I do not know how many times people watching 
the horrendous events of September 11 said: This is mindless 
violence, insane violence. As Dr. Post has stated, terrorism is 
certainly not insane, it is not mindless; it has a terrible 
logic that becomes visible when you begin to look at it from 
the perspective of Osama bin Laden. That is not to lessen the 
condemnation of terrorist acts one bit, but when understood 
from that perspective, it begins to become far more clear what 
is going on here.
    What was the objective or, more correctly, what were the 
objectives behind the September 11 attack? A portion of it, to 
be sure, is what probably would be called aggressive violence, 
as opposed to instrumental violence. There was a powerful 
element of punishment--inflict as much pain and suffering on 
the American people as possible.
    But beyond that, the violence was also instrumental. There 
was purpose. The stated purpose, to drive the United States out 
of the Middle East, raising very revealing comparisons of that 
struggle to the struggles that went on over a thousand years 
ago aimed at driving the Crusaders out of the sacred territory, 
of comparisons between bin Laden and Saladin.
    History, even events that took place centuries ago, is a 
real and living construct for our adversaries, not something 
that somebody reads in some musty old volume. This is a living 
force.
    Driving the United States out will destroy the prop for the 
regimes that they despise. How is that to be achieved, because 
we are a superpower, not easily driven out of any place? It is 
to be achieved, first by terrorizing the American people; their 
perception of us is that we are weak, that we are a people 
addicted to self-indulgence, that we will not have the moral 
muscle to stand up to this.
    But they also believe that terrorist action will provoke a 
military response by us, and that this military response then 
can be portrayed in the Islamic community as an assault by 
infidels against Islam. Just as we are desperately saying this 
is not a war on Islam, they are saying the opposite: That it is 
a war on Islam.
    By doing this they think that if they can cause us 
sufficient pain over a sufficient period of time, plus confront 
us with growing resistance in the Middle East and throughout 
the Islamic world, and that at some point, as we have done in 
Lebanon, in their view, and as we have done in Somalia and in 
other places, we will say: It is not worth it; we are leaving.
    Is it a crazy idea? Perhaps not to people who believe that 
they alone are responsible for driving the Soviet Union out of 
Afghanistan, thereby ignoring all of the other factors, and 
that the defeat inflicted upon the Soviet Union was so 
devastating that it led to the collapse of the Soviet Union, 
for which they claim credit. One superpower down, one to go.
    The attack also has, however, a positive aspect for them. 
Not to make an invidious comparison here, but they also think 
as politicians and they do identify constituencies.
    Senator Landrieu. Do not go there. Watch that, now. 
[Laughter]
    Mr. Jenkins. They ask: What does this do for us? We know 
what it is going to do to our opponents, but what does this do 
for us? What it does is advances the peculiar interpretation of 
Islam that goes with Osama bin Laden and the Taliban; that 
interpretation of Islam justifies a violent holy war and it 
makes suicide attacks the benchmark of commitment.
    So it is both an appeal to a constituency and it is in a 
sense an arsenal of what is their most valuable weapon. Their 
secret weapon on September 11 was not advanced hardware--their 
weapons were box cutters! Their secret weapon was the 
commitment of those individuals, and the ability to generate 
more of these people.
    The attack also elevates bin Laden personally. At the risk 
of trespassing into Dr. Post's area here, there are elements of 
megalomania here with issuances of fatwahs and his assertion of 
exclusive rights to interpret what God demands, his 
denunciations of other Muslims. In his view this is not just a 
contest between Islam and the West; it is a contest between his 
interpretation of Islam and other interpretations of Islam. In 
fact, if he can be the heroic figure, that gives him the power 
he needs to continue that struggle. It elevates him.
    The suicide terrorists are the frightening part of this, 
and September 11 did demolish some of the perceptions that we 
previously had of suicide bombers. In Israel, we had previously 
seen suicide bombers who were unformed youth, as Dr. Post said. 
We are now seeing suicide bombers who are older, better 
educated, people who would have some status in the world even 
if they had not carried out these attacks.
    Moreover, in the previous suicide attacks that we had seen 
in the Middle East, the recruiting and handling of the suicide 
bomber required coaches, control; attacks could not be launched 
at great distance from the destination of the attack. You could 
not send a suicide bomber to France and expect him to carry out 
his mission by the time he reached the Champs Elysee without 
this external reinforcement.
    Yet, in this case we saw the dedication of people who could 
live normal lives thousands of miles away from the source of 
their motivation, and yet knowing in the back of their minds 
while they are taking out the garbage, while they are eating 
hamburgers on weekends, whatever they did, that one day they 
are going to kill themselves and thousands of others; to 
maintain that kind of dedication over a period of months is an 
extraordinary thing.
    The other part that demolished some of our presumptions was 
we did not see a lot of group suicide attacks. We saw single 
suicide attacks, not groups of people that would come together 
and do this.
    That is the drive behind September 11. There was also, in 
terms of the choice of the World Trade Center, a bit of 
showmanship in here. In 1993 people bombed the World Trade 
Center--they tried to bring it down, they did not succeed. 
Osama bin Laden comes back and says: All right, I will show you 
how this can be done.
    Now, that has an effect on all the other terrorists in the 
world. It raises the level of terrorism; it makes all 
terrorists say: Ah, what buildings do we have that look like 
World Trade Centers? Where is our level of violence? It creates 
a new entry level.
    Two points I would like to make beyond this. One is simply 
to reinforce Dr. Post's point about the change in mindset. As 
we moved away from terrorism motivated by political agendas 
into the realm of terrorism motivated by ideologies derived 
from religion, then constituency, the importance of 
constituency is reduced and with it the constraints--and this 
is where I see some of my own arguments over the years have 
been changing.
    Years ago I wrote that terrorists want a lot of people 
watching, not a lot of people dead. In fact, terrorist violence 
has escalated; large-scale indiscriminate violence is the 
reality of today's terrorism. Does that automatically take us 
into the realm of chemical, biological, or nuclear weapons? I 
do not know. I do not believe that right now Osama bin Laden 
has a nuclear weapon, but I have no doubt that if he had one he 
would figure out a way to use it.
    We do not want to run the test. The analytical conclusion 
here is that so long as the al Qaeda network survives we must 
assume that it will seek the most advanced means of destruction 
and that we will be the target. Therefore, even though we 
understand that the destruction of the al Qaeda network will 
not end terrorism, it becomes absolutely necessary that we 
destroy the capability of this organization.
    A final trend here: Power--power defined in a crude fashion 
as simply the capacity to kill, destroy, disrupt, alarm, force 
us to divert vast amounts of resources to protection against 
attack, is descending to smaller and smaller groups, whose 
grievances, real or imaginary, it will not always be possible 
to satisfy.
    To put it another way, the small bands of irreconcilables, 
of fanatics, of lunatics, that have existed throughout history 
have in our age become an increasingly potent force to be 
reckoned with. How we as a democratic society are going to deal 
with that and remain a democratic society is one of the major 
challenges that we have in the 21st century. I believe we will 
come through. In direct response to Senator Roberts' question, 
what is our strength in this? Our ultimate defense against 
terrorism is not only going to be better intelligence and 
better security, more concrete and more guards; it will be our 
own individual courage and resolve, our sense of community and 
humanity, our continued tolerance, our ability to realistically 
accept risk, which is contrary to what we have done in the 
past, and our continuing commitment to the values for which 
this Nation stands.
    [The prepared statement of Mr. Jenkins follows:]
  Prepared Statement by Brian Michael Jenkins, Senior Advisor to the 
                 President of the RAND Corporation \1\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this written 
testimony are the author's alone and should not be interpreted as 
representing those of RAND or any of the sponsors of the research.
---------------------------------------------------------------------------
    Mr. Chairman, members of the subcommittee, thank you very much for 
the opportunity to address this important subject.
    Despite the high level of anxiety the American people are currently 
experiencing, we may still not fully comprehend the seriousness of the 
current and near-term threats we confront or the longer-term 
consequences of the trends underscored so dramatically on September 11.
    I say this not to arouse further alarm. I have never counted myself 
among the ``Apocalyticians'' who forecast scenarios of doom in lurid 
detail. In my own essays over the past 30 years, I have been skeptical 
of the notion that there is an inexorable progression in terrorism from 
car bombs to terrorist use of nuclear weapons. Rather, my purpose here 
is to warn against a return to complacency once the shock of September 
11 has begun to wear off.
    Over the past decade, we have suffered a series of devastating 
terrorist attacks--attacks that in terms of the concentration and 
magnitude of casualties have been greater than anything experienced by 
other nations: The 1993 World Trade Center bombing was followed by the 
1995 Oklahoma City bombing, which was, in turn, followed by the events 
of September 11--each attack worse than the last. However, because 
those attacks have been sporadic, the passage of time between them has 
allowed us to go back to business as usual.
    This time must be different. In that light, let me begin by 
discussing the current and near-term threats we face, before turning to 
the longer-term consequences of the trends emerging from September 11.
                     current and near-term threats
    Turning first to the current and near-term threats, bin Laden's al 
Qaeda network will almost certainly attempt further major terrorist 
operations against American targets abroad and, potentially, here. We 
know that the September 11 attack took years of planning, which means 
that preparations for it overlapped the attacks on the American 
embassies in Africa and the U.S.S. Cole, as well as the foiled attempt 
to carry out terrorist attacks here during the millennium celebrations. 
The terrorist leaders also would know that the September 11 attack 
would provoke a military response, which they could then characterize 
as an assault on Islam. In other words, the terrorist leaders did not 
intend September 11 to be their last act--they intended it as the 
beginning of their end-game. Therefore, they would have made plans to 
survive the anticipated military response and continue to communicate, 
and they may have set in motion terrorist operations that will occur 
weeks or months or years from now, unless we can identify and destroy 
every terrorist cell.
    What form these attacks might take is impossible to say. There is 
no obvious predictable scenario, and vulnerabilities are infinite. 
However, we can speculate on some of the logical targets.
    Commercial aviation remains a preferred target for terrorists 
seeking high body counts through sabotage or through the acquisition of 
an airplane to use as a guided missile. While a repeat of the September 
11 hijackings may not seem likely, authorities did, after the September 
11 attacks, uncover a terrorist plot to hijack a commercial airliner in 
Nepal and possibly crash it into a target in India. Unfortunately, 
despite efforts to improve it, aviation security is still inadequate in 
this country, and general aviation also needs better protection.
    Public surface transportation offers terrorists easy access and 
concentrations of people in contained environments. We have seen 
terrorist bombing campaigns on trains and buses abroad, and there was a 
plot in 1997 to carry out suicide attacks on New York's subways, which 
would have resulted in hundreds of casualties.
    Because of its size and scope, the Nation's critical infrastructure 
is hard to protect; then again, terrorists have historically not 
attacked it, preferring instead to go after targets offering high 
symbolic value or killing fields. Still, that does not mean that 
terrorists will not seek to carry out such traditional sabotage. We may 
want to exploit the opportunity afforded now to rebuild aging 
infrastructure, incorporating security in the new design.
    In terms of targets abroad, diplomatic facilities and corporate 
symbols of America will bear the brunt of terrorist attacks.
    Of course, bin Laden's televised appeals also may inspire 
individual acts of terrorism by supporters around the world. Our own 
military efforts against al Qaeda and the Taliban may provoke isolated 
acts of terrorism as we saw during the Gulf War, although these are 
likely to be more spontaneous, smaller-scale attacks.
    I remain doubtful that the person who sent anthrax through the mail 
in September reports to bin Laden. From the beginning, I have believed 
he is more likely a single individual driven by idiosyncratic motives, 
which will make him more difficult to identify and apprehend. He will 
probably strike again, and his skills will continue to improve with 
each attack. The publicity he has received will inspire others. Expect 
to see further small-scale biological attacks by terrorists, 
extortionists, and lunatics. Anthrax hoaxes already have become a major 
problem. The anthrax letters also have illustrated one perhaps 
unanticipated consequence--the persistence of the spores makes 
decontamination difficult and costly and may deny the use of 
contaminated facilities for long periods.
    September 11 creates a new level of destruction toward which other 
terrorists will strive. Since September 11, several terrorist plots 
have been uncovered, including one by the Basque ETA to set off nearly 
two tons of explosives at the Picasso Tower in Madrid, a building 
resembling the World Trade Center.
    Although our focus is on bin Laden and his al Qaeda network, 
current and near-term threats abroad and on American soil will come 
from other sources as well. Our growing involvement in Colombia's 
vicious guerrilla wars could provoke a terrorist response. Anti-
globalization protests, which had been building in size and intensity 
prior to September 11, will not fade with the slowdown of the world's 
economy and may harden into a more aggressive anti-American posture.
    Anti-Semitic, white supremacists, and other extremists here who see 
themselves at war with the Federal Government also remain a threat. 
Their fantasies tend toward scenarios of mass destruction, and they 
have exhibited a dangerous interest in chemical and biological 
substances.
    In addition, politically inspired assaults in cyberspace now 
regularly accompany international crises. September 11 overshadowed the 
concurrent spread of a vicious virus that brought some companies close 
to pulling the plug on the internet. Cyber-crime has evolved rapidly 
with the growth of the internet. Cyber-terrorism and cyber-war are 
still in their infancy. More sophisticated attacks are likely.
    long-term consequences of the trends emerging from september 11
    While the current and near-term threats will persist, there is also 
the issue of the longer-term consequences of the September 11 attacks. 
Was September 11 an anomaly or did it mark the transition to a new 
world of terrorism? Seeing it as an anomaly would give us comfort that, 
once we have dealt with those responsible, we can return to the world 
as it existed the day before. That is unlikely to be the case, although 
in several respects, the September 11 attacks derive from a unique 
confluence of developments. In particular, the war against Soviet 
forces in Afghanistan created a network of veterans throughout the 
Islamic world. The subsequent victory of a like-minded Taliban 
guaranteed safe haven for the network's headquarters and training 
camps, which graduated thousands of additional volunteers, fanatically 
obedient to a megalomaniac leader who possessed vast sums of money, 
organizational skills, dedication to large-scale violence, and a sense 
of strategy unusual among terrorists. Of course, the United States 
contributed to his growing reputation by denouncing him as the 
preeminent organizer of international terrorism. Add to this a 
religion-based ideology calling for a violent holy war and offering 
paradise to suicide attackers--the benchmark of commitment to their 
cause.
    Japan's Aum Shinrikyo cult had some of these attributes: vast 
financial resources, a charismatic leader, fanatically obedient 
followers, and a taste for schemes of mass destruction. However, it did 
not have suicide attackers or a geographic safe haven. Within weeks of 
its attack on Tokyo's subways, the organization was destroyed, and its 
leaders were in prison.
    Although the September 11 attacks derive from a unique confluence 
of events, some aspects of those attacks also confirm broader trends. 
Analysts in the 1990s began to describe a ``new terrorism'' that was 
motivated by ideologies deriving from ethnic hatreds or extremist 
interpretations of religion, that was organized into looser networks, 
and that was more willing to engage in mass destruction. The Bremer, 
Gilmore, and Deutch Commissions on terrorism and proliferation all 
warned of the possibility of large-scale terrorism in the United 
States, terrorist use of chemical and biological weapons, and even of 
the major psychological consequences of small-scale bioterrorism 
attacks. These warnings are now realities.
    We must anticipate further large-scale terrorist attacks, 
coordinated when possible to achieve greater destruction. The thwarted 
1993 plan to bomb multiple targets in New York City, Ramzi Yousef's 
plot to sabotage 12 U.S. airliners in the Pacific, bin Laden's 
coordinated bombings of the American embassies in Africa, and the 
September 11 attacks clearly indicate the mindset of today's most 
dangerous adversaries. These attacks have political purpose, but they 
also represent the hostile use of violence as opposed to the 
instrumental use of violence.
    In September, we suffered an uncoordinated multidimensional assault 
comprised of a series of massive conventional attacks, a small-scale 
bioterrorism attack, and a computer virus. The perpetrators probably 
were not connected to one another, but in the future, we could see 
coordinated multidimensional attacks calculated to achieve cascading 
effects and overload our capacity to respond.
    It is still uncertain whether the use of chemical or biological 
weapons will become a routine terrorist tactic. Aum experimented with 
biological weapons and used chemical weapons, but 6 years later, long 
after most terrorist innovations become routine terrorist tactics, no 
group has yet attempted to imitate the 1995 sarin attack, although 
North African groups affiliated with bin Laden reportedly have 
attempted to acquire poison gas. The al Qaeda network has been linked 
with efforts to acquire both biological and nuclear material and 
includes demonstrations of chemical warfare in its training curriculum.
    Will terrorists go nuclear? Years ago I argued that while madmen 
might nurture plans to destroy the world, self-imposed constraints 
discouraged even those we labeled terrorists from operating at the 
higher levels of violence of which they were clearly capable, even 
without resorting to exotic and technically demanding weapons if mayhem 
were their goal. Wanton violence could jeopardize group cohesion, 
alienate perceived constituents, and provoke ferocious government 
crackdowns. I wrote then that terrorists wanted a lot of people 
watching, not a lot of people dead.
    I still believe this to be true of most of the groups that have 
resorted to terrorism, but these constraints were neither universal nor 
immutable. Over time, terrorist violence has escalated. Large-scale, 
indiscriminate violence has become the reality of terrorism in the 
1990s. At the same time, owing to the collapse of the Soviet Union and 
the proliferation of nuclear weapons development programs, the 
acquisition of nuclear material, the biggest technical hurdle, may have 
become easier. How close we are to that theoretical point in time when 
capabilities meet intentions I cannot say, but we are closer. Of 
course, in focusing on the high end of the threat spectrum--a nuclear 
bomb--we should not ignore the possibility of lesser actions involving 
radioactive material.
    Still, I doubt that bin Laden currently possesses nuclear weapons. 
But if he did, I suspect he would find a way to use them, whether as a 
deterrent to halt U.S. military action or, if facing annihilation, in a 
final act of destruction. We do not want to run the test. So long as 
the al Qaeda network survives, we must assume that it will seek the 
most advanced means of destruction and that we will be the target. The 
destruction of al Qaeda will not end terrorism, but it will buy time to 
improve our intelligence and our defenses and to address some of the 
reasons for the hostility that the bin Ladens of the world have been 
able to exploit.
    Terrorism comprises not only the attacks terrorists carry out but 
also the psychological effects these attacks produce. Thus, another 
long-term trend is that we live now in an age of alarms. Research since 
September 11 shows that many Americans are suffering from trauma-
related stress reactions. The Nation's mental health must be considered 
another vulnerability. Its protection will require public education and 
skillful communications strategies.
    The September 11 attack underscored a final long-term trend. 
Power--the power to kill, destroy, disrupt, alarm, and force nations to 
divert vast resources to protection against attacks--is descending to 
smaller and smaller groups, whose grievances, real or imaginary, it 
will not always be possible to satisfy. Put another way, the small 
bands of irreconcilables, fanatics, and lunatics that have existed 
throughout history have become, in our age, an increasingly potent 
force to be reckoned with. How we, as a democratic society, will defend 
ourselves against this and remain a democratic society is one of the 
major challenges of the 21st century.
                               conclusion
    In light of this sobering vision of the future--both the current 
near-term threats and the longer-term consequences of September 11--our 
biggest enemy may be our own complacency--a complacency born from our 
typical American optimism and our frustration for long, frustrating 
campaigns. Unlike our country, other countries that have confronted a 
continuing terrorist campaign--such as the United Kingdom, Spain, and 
Israel--have developed the focus and mindset to view the struggle as 
ongoing.
    That said, we must develop the same focus and mindset. In these 
terms, our ultimate defense against terrorism will not be more concrete 
and more guards. It will be our own individual courage and resolve, our 
sense of community and humanity, our continued tolerance, and our 
ability to realistically accept risk, as well as our continuing 
commitment to the values for which this Nation stands. While the 
challenge to do this is great, I am confident we will come through.

    Senator Landrieu. Thank you, Mr. Jenkins, for that eloquent 
and very helpful testimony.
    We have been joined by two of our colleagues, Senator 
Hutchinson and Senator Collins. I thought we would go through 5 
minutes of questions. If we have time we will go through 
another round, maybe just a wrap-up question, because I think 
Dr. Post has to leave around 3:30. If you could be with us for 
just a few more moments, because both of your testimonies were 
just excellent.
    Let me begin. Dr. Post, in a recent opinion piece you 
wrote: ``The current conflict is fundamentally a war for 
people's minds. If we rely solely on our technological 
superiority without countering Osama bin Laden's psychological 
war waged with the pen, the word, and the tongue, we will 
surely lose this conflict.''
    Given the risk associated with loss, given the magnitude of 
the weapons that are now either close to or in their hands, 
losing is not really an option. So with that, would you please 
tell us whether you perceive the United States as taking steps 
to win the psychological war; if so what steps have been 
effective in your view; what steps have not been effective; and 
what message would we need to send to terrorists and to 
populations that produce them, and by what methods do we send 
those messages?
    Dr. Post. That is an excellent question. First, I think it 
should be emphasized that we have been quite remiss in the past 
in not relying more heavily on weapons of psychological 
influence, of psychological deterrence. In many ways we have 
left the arena of public opinion clear and free for Osama bin 
Laden to be sending his distorted message of hatred. In the 
madrassas, for example, in Pakistan, a very virulent brand of 
Islam is being taught which is intensely anti-American, America 
being portrayed as the enemy of Islam, with 8, 9, 10-year-old 
boys holding up a Kalishnikov, saying: ``Jihad, jihad, kill the 
Americans.''
    So these feelings are very deep. How many in that area know 
that our third largest foreign aid commitment has been to 
Afghanistan? How is it that in Egypt, who received $2 billion 
in aid, there is a virulent anti-American press alongside of 
that aid being received?
    Thus, the war for ``hearts and minds'' is crucial. I am 
quite encouraged in fact, though, to see the crucial importance 
of this issue as having been grasped quite thoroughly by this 
administration. Efforts are underway through the State 
Department, through the Department of Defense, to be seriously 
marshalling the battle for the hearts and minds and in a really 
quite sophisticated fashion. But it is a late entry to this 
arena, and we should not be thinking of this as something that 
is going to be a matter of weeks or months. This is a process 
that will be taking not just years, but generations in fact.
    When hatred is bred in the bone, it is not easily diverted. 
Once someone is in these groups, it is very hard to dislodge 
them. So we are talking about what needs to be a longstanding 
process and that means a major commitment to continue to fight 
for the hearts and minds of these youth.
    Senator Landrieu. In your experience--and Mr. Jenkins, if 
you could please jump in here--what has our country done in the 
past? Is there something you could point to that has been very 
effective in terms of a strategy or a particular operation or a 
particular exercise that has helped us to win over hearts and 
minds, that might be applicable to this situation, or things 
that you think have been very effective that we could step up 
to in terms of funding?
    If you wanted to take this opportunity to acknowledge 
things that you see that are not effective at all, where we 
could save some money and reinvest it in ways that would be 
helpful, that would also be welcome.
    Dr. Post. Let me begin. First, a number of countries have 
been quite effective in doing this. In Italy, for example, at 
one point 65 percent of the Italian population favored the 
goals, if not the means, of the Red Brigades. Through the 
pentiti program, which offered amnesty for dropping out of the 
group in return for cooperation, and a public education 
campaign, they were able to reduce the popularity of the Red 
Brigades from 65 percent to something like 14 percent.
    There are weapons that can be used in this way. One thing 
we must not do, which we started to do, but have, for the most 
part, ceased--and I have been pleased to see this decrescendo--
is personalize the conflict. This is to emphasize what Brian 
Jenkins was talking about. Every time this becomes the United 
States versus Osama bin Laden, this is points for Osama bin 
Laden. It magnifies his stature.
    I would like to see that $25 million reward for Osama bin 
Laden reduced to $1. I would like to see his name never 
mentioned: Osama who? I think this will not happen, but it 
really would be extremely helpful.
    I have been quite encouraged by our attempts to say this is 
not a war on Islam, this is a war on terrorism. But we should 
make no mistake about it, Osama bin Laden is trying to portray 
this as Osama bin Laden as commander in chief of Islam versus 
George W. Bush as commander in chief of the corrupt modernizing 
West, with his able deputy Prime Minister Tony Blair, and he is 
succeeding. It has a lot of resonance in his area, and that is 
what we have to work very hard at not being engaged in, so that 
this does not become Islam versus the West.
    Senator Landrieu. Mr. Jenkins, my time has expired, but 
would you take a moment and respond?
    Mr. Jenkins. Sure. It may sound odd to say this at this 
moment, little more than 2 months after September 11, but in 
fact we have had over the past 25 years a great deal of success 
in combating terrorism internationally, in persuading a portion 
of the world--a large portion of the world--to accept the 
notion that there are certain actions in the international 
domain that we will label terrorism and that will be 
unacceptable behavior, in persuading people to buy that idea.
    We have now a number of international conventions that deal 
with various aspects of hijacking, sabotage of aircraft, 
protection of diplomats, the taking of hostages. Are they all 
adhered to the degree that we would like? Absolutely not. But 
certainly in laying a framework internationally for combating 
terrorism, we have had a measure of success.
    The irony in this is that we have achieved that measure of 
success by defining counterterrorism very narrowly. 
Counterterrorism was just that. We would not get into the 
issues of root causes, of political differences. I remember in 
the 1970s entire international conferences drifting off into 
the Bermuda Triangle of arguments about definition--did ends 
justify means--and the sophistries that one man's terrorist is 
another man's freedom fighter.
    In order to avoid that swamp, we defined terrorism on the 
basis of the quality of the act, not the identity of the 
perpetrator or the nature of the cause. We would not enter 
political discussions because that risked undermining 
international progress. We did not want to argue about causes. 
We wanted to say sabotaging aircraft is wrong; we may have 
profound political differences with Cuba, with Syria, with a 
number of other nations around the world, but we can all agree 
that hijacking airplanes is bad for all of us to tolerate.
    Not surprisingly, all of the diplomats of the world could 
readily agree that diplomats ought not to be targets of 
violence. International diplomacy depends on it. So by keeping 
terrorism narrowly defined, we were able to achieve progress.
    Now, we did not adhere to this approach entirely. We 
intervened in places like Northern Ireland through Senator 
Mitchell's activities, and in the Balkans, in other places, to 
resolve or head off struggles that would produce terrorist 
campaigns if left unattended.
    So we did not ignore that dimension entirely, but it was 
not part of our counterterrorism effort. We are now faced with 
a situation where we have to not only dismantle terrorist 
structures, but, as Jerry Post says--and it is going to take us 
a couple of generations perhaps--we have to deal with that 
fundamental mindset, with some of those more basic 
psychological and political things that we did not address in 
the past.
    Senator Landrieu. Thank you very much.
    Senator Roberts.
    Senator Roberts. Thank you, Madam Chairman.
    I am going to ask a couple of questions of Dr. Post and 
then hopefully move to Mr. Jenkins. Dr. Post, how does the 
apparent collapse of the Taliban and support in Afghanistan for 
al Qaeda now impact Mr. bin Laden's image?
    Dr. Post. Well, I think we ought to remember--and the 
estimates vary significantly--al Qaeda is estimated to be 
operating in at least 30 countries, and as many as 68. So the 
dismantling of the base in Afghanistan does not mean the 
dismantling of al Qaeda by any means.
    Also it is important to emphasize that even if we get Osama 
bin Laden, al Qaeda will continue.
    Senator Roberts. That is my next question.
    Dr. Post. For other charismatically-led groups, such as 
Sendero Luminosa of Peru with Guzman, the PKK, the Turkish 
Kurdish separatist group led by Ocalan, when their leaders were 
captured it was a mortal wound to the group. Osama bin Laden's 
leadership is different. Based on his training in business 
administration, he really should be thought of as more chairman 
of the board of a large holding company that he has ``grown'' 
through mergers and acquisitions.
    He has already appointed his successor, his number two 
man----
    Senator Roberts. That is my third question.
    Dr. Post. --Zawahiri of Egypt, one of the founders of the 
Islamic Jihad of Egypt and probably associated with the 
assassination of Sadat. He may well in fact be the person who 
helped plan this effort.
    So while it would be a dent in the organization, it 
certainly would not be the end of radical Islamic terrorism or 
even of al Qaeda.
    Mr. Jenkins. Can I just add a comment to that?
    Senator Roberts. Well, not right away.
    Mr. Jenkins. All right.
    Senator Roberts. Madam Chairman, Dr. Post is clairvoyant. 
He answered three questions within one----
    Senator Landrieu. Brilliant minds at work.
    Senator Roberts. --which is just amazing.
    Dr. Post. I specialize in reading minds.
    Senator Roberts. Then, I am going to let Mr. Jenkins have 
his comment.
    Mr. Jenkins. The point I wanted to make is that we know 
that the planning of September 11 took years. That meant it 
overlapped the attack on the U.S.S. Cole, it overlapped the 
attack on the U.S. embassies in Africa, and whatever they had 
planned for the millennium celebrations here which was 
thwarted.
    But this attack they certainly knew would have provoked a 
response by us. Therefore, I am persuaded that there were two 
plans on September 10th. One plan was for the operation to take 
place, the other plan was for the survival of the al Qaeda 
network--the survival of the leadership, the survival of the 
financial structure, the ability to continue communications, 
and perhaps having terrorist operations in place or the ability 
to continue operations, knowing that they would have to go to 
ground because a military counterattack would be the 
predictable reaction to their attack.
    I suspect that they put in place plans well before the 
September 11 attack, anticipating these possibilities. Now, did 
they anticipate the fall of the Taliban? I do not know that. 
But certainly they would have made plans for their own 
survival.
    Senator Roberts. You are pretty much in sync, I think, with 
what General Krulak, former Commandant of the Marine Corps, 
kept advising us, that they will never fight us strength-on-
strength, that they do a great deal of planning, that actually 
Osama bin Laden would know that we would react in this fashion, 
that they would now go to more of a guerrilla conflict, and 
that should he be brought to justice--in any way that you might 
think appropriate--that he would have plans on down the road.
    In your testimony you said the first thing you worried 
about was complacency, and then on page 10 you said the last 
thing you worried about was complacency. So the American people 
are saying, well, good, we got him; that does not end it by any 
means. In some instances he would become a martyr and the show 
would go on.
    Do you agree with Samuel Huntington that any time a country 
gets over 20 percent of the population between 15 and 25 years 
and mostly male we are in trouble, or the country is in 
trouble?
    Senator Landrieu. I would agree with that.
    Senator Roberts. Well, Mr. Huntington points out exactly, I 
think, what Dr. Post was trying to point out, and that is on 
page 10. You indicated terrorists cannot be forced to give up 
terrorism. It is something about the bone, that it goes to the 
bone generation after generation. Yet you also say ``When 
hatred is bred in the bone and passed from generation to 
generation, it does not yield easily to peace talks,'' which is 
certainly the case.
    But then you say: ``All these goals are components of a 
strategic communications process.'' I know the son of the Shah 
is now trying to broadcast the proper kind of information to 
Iran, which by the way has the same kind of ratio of young 
people, but now they are forces in moderation.
    So if it is in the bone and it is bred generation-to-
generation, what do we do in terms of communication to try to 
break that? I have an idea. I want you to--you cannot 
anticipate this because I have not said it yet--but at any 
rate, I think the secret is women. If you saw the media 
coverage in regards to what happened in northern Afghanistan 
and the sheer joy on the part of the women of that country who 
had been so punished, it just seems to me that that would be a 
very exciting possibility.
    Now, how do you get it out of the bone in regards to the 
communications system?
    Dr. Post. Well, what is most important, as long as there 
are these structural inequities and impossibility for youth to 
find some kind of decent future in a country, their only course 
would be to strike out in despair with violence. So we cannot 
counter this with security alone. It means there needs to be 
alternative pathways within a society so that people can join 
the system through political activism, rather than having to 
leave the system.
    That really means educational reform, economic reform, and 
social reform. We have to play a leading role in helping these 
nations move to a place where there is some possibility of a 
brighter future for their youth, or else we are doomed.
    Senator Roberts. My time has expired.
    Senator Landrieu. Thank you.
    Dr. Post, I thank you for being with us and I am sorry that 
you have to leave.
    Senator Collins.
    Senator Collins. Thank you, Madam Chairman.
    Mr. Jenkins, I am going to ask you a question that I was 
going to ask Dr. Post, as well as one for yourself. I do 
believe this administration understands the necessity of trying 
to win the hearts and the minds of the people. That is one 
reason we are dropping food, blankets, and leaflets. We keep 
repeating that this is not a war against Islam. We are taking a 
lot of steps in that direction.
    But it seems to me that as long as you have schools in the 
Middle East teaching hatred of Americans and you have state-
controlled media preaching hatred of Americans, that our 
dropping leaflets is not going to do much to counter that. 
Should we be making more of an effort, particularly with our 
ersatz allies such as Saudi Arabia and Egypt in this coalition, 
to put pressure on them to reform what is being taught to 
children in schools and what is being preached in the state-
controlled media?
    Mr. Jenkins. I do not think that is a bad idea. I do not 
know how much effect it will have, because, to a certain 
degree, these are regimes that survive by tolerating a great 
deal of anti-Americanism, because if it was not anti-
Americanism it might be anti-regime. In fact, your question 
raises a broader issue.
    First of all, I think it is proper to say that this is not 
a war against Islam. That is a first step. What we have done in 
the area of psychological operations is good, but it is at a 
primitive level. I would assert that 25 years ago we were 
better at psychological operations--in the 1960s and 1970s, 
than we are now. With the end of the Cold War, we dismantled a 
lot of capability. We discarded a lot of the institutional 
memory.
    That is extraordinary for a country that understands so 
much about behavior and indeed is so skillful in appealing to a 
population and has such sophisticated politics. If you ran your 
political campaigns on the level of sophistication that we are 
running our psychological operations on in the Middle East, you 
would not be sitting at this table now. This is simply not as 
sophisticated as it should be. We can do a lot better.
    In terms of our interaction with Islam, we are not going to 
be recognized as experts in Islam. President Bush does not get 
to issue fatwahs. We are not going to engage the Middle Eastern 
audience on that level. But we do have positive values that we 
projected during the Cold War.
    This is a country that believes in liberty, believes in 
human rights, believes in equality of gender. We have a number 
of positive things that we believe in that educated people 
around the world, even uneducated people, also believe in.
    We have muted that message to a certain degree in the 
Middle East, in part because if we become very vigorous about 
projecting those kinds of American values, not just American 
pop culture, but American values, that runs smack into some of 
the regimes that are our allies in the area. So there is a risk 
in that.
    Afghanistan may provide the best opportunity. It is like a 
crisis: out of the worst comes the best. Since the place has 
been so politically demolished--and I agree with Senator 
Roberts, a powerful force in Afghanistan are women who have 
risked their lives in confronting the Taliban. If we can avoid 
the temptation to walk away from Afghanistan once we succeed 
militarily, whatever we mean by that, engage it politically and 
assist in the development of its educational system and its 
political system, we can make Afghanistan a recipient of not 
only American assistance, but American values.
    Senator Collins. Mr. Jenkins, I see my time has expired 
already. Could I ask one more brief question? Would that be all 
right?
    Senator Landrieu. Go right ahead.
    Senator Collins. If you could answer briefly. I want to 
follow up on Senator Roberts' point. In your written testimony 
you talked about how our biggest enemy may well be our own 
complacency once the shock of the attack has worn off. It seems 
to me we have a difficult task in striking the right balance, 
because on the one hand we are telling people to get back to 
normal life, to be optimistic, to not be frightened; yet we are 
also warning against being complacent. It is hard to get back 
to normal life, be optimistic, not be frightened, and not 
become complacent.
    Mr. Jenkins. No, I think you temper the message on both 
sides. We get schizophrenic messages from Washington. On the 
one hand we are told, go shopping, have fun, live life as 
normal; and then we get an announcement from the Attorney 
General that we are all going to die by Tuesday. This only 
increases people's anxiety.
    We are not going back to normal. The world as it existed on 
September 10th does not exist any more. This is an 
extraordinary time. It is going to require extraordinary 
courage and resolve on the part of the American people. That is 
a fact.
    Now, on the issue of being frightened, even the heightened 
probability of a terrorist attack does not translate into 
significantly increased risk to the individual American. There 
are 280 million of us. Hopefully, the Government is going to 
get better at communicating. But more importantly, the citizens 
are going to get a lot better at--as other countries that have 
dealt with continuing terrorist threats have understanding 
threat, understanding risk, and being able to go on with their 
lives.
    They delivered milk during the blitz in London when 45,000 
people were killed. We can go on with our lives and still deal 
with whatever the terrorists can throw at us.
    Senator Landrieu. Thank you.
    We are going to try to wrap this up at about 4 o'clock. 
Senator Hutchinson we will go to you for your 5 minutes and 
then we will have some closing questions and then break for our 
closed session.
    Senator Hutchinson. Thank you, Madam Chairman.
    Mr. Jenkins, thank you for your testimony. I am trying to 
understand exactly what we are facing. It seems to me from the 
testimony today, that there are a lot of characteristics of a 
cult mentality in what we are dealing with. Yet it is not 
really a typical cult.
    Of a billion or so Muslims in the world, what percentage of 
those Muslims would embrace the radical fundamentalist 
extremist Osama bin Laden version?
    Mr. Jenkins. I could not give you a percentage, but 
probably only a tiny portion of it; it would vary according to 
where we are in the Islamic world. It would be higher in places 
like Pakistan. It would be much lower in places like Indonesia.
    Senator Hutchinson. I have heard as high as 20 percent, 
which we are talking 200 million, not a typical cult when you 
talk about 200 million people.
    Mr. Jenkins. Right.
    Senator Hutchinson. Let me pick up on the changing 
demographics that you mentioned. You said that they are now 
older and that they are more educated, many of these who are 
the actual terrorists. Of the tens of thousands that have gone 
through these terrorist training camps, and over the last 
decade there have been tens of thousands, is it typical for 
them to lose zeal as they grow older or the longer they are out 
of those training camps? I mean, surely not the tens of 
thousands that have actually gone through the camps are out 
there somewhere in Europe or in the United States or in the 
West plotting terrorist acts.
    How does that typically occur as they age?
    Mr. Jenkins. I suspect, Senator Hutchinson, there is some 
erosion as one departs from the camp, and not everybody departs 
the camp as a fanatical obedient of al Qaeda, nor do they 
remain so over a period of time. I think it is not just the 
camps; what is unique, which Dr. Post mentioned, is the issue 
of the schools. If you can get to a 12-year-old boy, you have 
him for life, if you can inculcate certain beliefs, whether we 
are talking about the madrassas or the Hitler Youth.
    Senator Hutchinson. Is that not also true--I mean, we talk 
about the power of women, but we are talking about religious 
devotion and religious ideology, and it seems to me that even a 
repressive religion, if they are taught that from childhood, 
that they have accepted that submissive, repressed role, and 
that that may inhibit some of the potential for them to 
liberate themselves.
    Mr. Jenkins. Many I suspect have, but what is remarkable is 
the degree of resistance. In a world of open communications, 
they can see comparisons between their own condition and the 
rest of the world, and it does lead to comparisons where they 
say, this is not proper for us.
    Senator Hutchinson. I have many questions and I wish I 
could stay on one track longer. My understanding of Islamist 
terrorism is that they like to do sensational terrorist events. 
I have read that they have even a two-track approach, where 
there are sensationalist terrorist events as well as a kind of 
low-grade effort to disrupt the lives of the American people.
    We had this sensational attack on September 11 and then we 
had this anthrax and there were 17 cases and a few letters. It 
did not kill a lot, four people; tragic, but it is not a 
massacre. Why have there not been--if they planned out what 
would happen, if they have the network out there, why have we 
not seen another sensationalist terrorist attack since 
September 11? How does the anthrax--do you think the anthrax is 
part of their strategy?
    Mr. Jenkins. I do not believe that the individual that sent 
the anthrax letters reports to bin Laden. I think there we are 
dealing with an individual motivated by idiosyncratic motives, 
which will make that person all the more difficult to identify 
and apprehend.
    I think the person was probably inspired by the events of 
September 11 and certainly inspired by the public discussion in 
the days immediately after September 11 about chemical and 
biological warfare. There is a relationship between popular 
culture, what we speculate about in our novels and on our TV 
sets, and what individual actors do.
    Going forward, what we had in September was an 
uncoordinated multi-dimensional attack. We had the suicide 
attacks with the airplanes. We had the anthrax letters. We had 
what was little noticed but quite serious in the corporate 
world--a very vicious computer virus at the same time. In the 
future, because terrorists learn too, they are watching what 
happened in terms of cascading effects--we could see 
coordinated multi-dimensional attacks.
    Right now they are going from spectacular to spectacular to 
spectacular. In the future, if they see the results on this, 
they may begin to do this twin track thing that you are talking 
about.
    Senator Hutchinson. Are you surprised that there have not 
been additional attacks since September 11? Have they just been 
thwarted by our security measures?
    Mr. Jenkins. Some of them may have been thwarted. But no, I 
am not surprised. Their concept of time is different from our 
concept of time. If we go 2\1/2\ months without an attack, we 
ask why or, worse, we are in some cases breathing sighs of 
relief. If you look at their patterns of activity, these 
attacks are years apart.
    Senator Landrieu. Thank you, Senator, for those questions. 
They were excellent.
    I have one wrap-up question. I know Senator Roberts has one 
or two, and we would like to try to wrap up at about 4 o'clock.
    Given your extensive background, Mr. Jenkins--and I can't 
thank you enough for what you have shared with our 
subcommittee--my wrap-up question would be this. Given the 
profile that you have outlined, the motivations that you have 
helped clarify for us, what in your view would be the weapons 
of choice for these terrorists that you have described and why? 
That might be helpful to us in our planning.
    Mr. Jenkins. I wish I could answer that, and forgive me in 
some cases for giving you frustrating answers. If we look at 
commercial aviation, surface transportation, critical 
infrastructure, large assemblies of people, terrorists have 
virtually unlimited targets.
    We can look at past patterns of activity and discern that 
commercial aviation is an attractive target to them; surface 
transportation, for different reasons. For other reasons, 
because they prefer targets with high symbolic content or 
killing fields, they have tended not to carry out traditional 
acts of sabotage against infrastructure.
    But beyond this, we cannot really say much with any 
confidence on the basis of their past behavior. They want 
something spectacular. Spectacular in today's context means 
massive casualties, massive disruption, attempting really 
literally to bring society to its knees. So you look at those 
sorts of things.
    Having said that, it really becomes a problem for 
government, since terrorists can attack anything, anywhere, 
anytime; we cannot protect everything, everywhere, all the 
time. We need to dismantle their ability to carry out those 
attacks. In terms of increasing our own physical protection, we 
need to have some strategy for doing so. We simply cannot pour 
enough concrete, deploy enough guards, to protect every nuclear 
reactor, every power transformer, every bridge, every subway, 
every airport. We do not have enough people to do that.
    Senator Landrieu. Senator Roberts.
    Senator Roberts. The comment that you made as to what makes 
Osama bin Laden tick or his master plan really intrigued me. I 
think I am right, and you correct me if I am wrong, in terms of 
his specific goal, i.e., to bring down the pro-western 
governments in the Arab states and then have him be the 
messenger or actually fulfilling the mandate that when Mohammed 
went to meet his maker or Allah in 641 and declared that Arabia 
would be for Muslims, as opposed to Jews and Christians, that 
he has succeeded; and that he is a master manipulator and 
planner to really achieve that.
    Then you went ahead and indicated that once you get a 
youngster 11, 12 years old and you inculcate them with this 
kind of thinking, it is almost impossible to change. Then we 
are also suggesting, however, that somehow we can nation-build 
or stabilize Afghanistan, which is a tall order to say the 
least, with all the tribes and all the differences and all the 
cultures and all the ethnic differences. Is that a doable 
thing?
    In saying that, I am reminded of Lawrence of Arabia, which 
is a great movie and I would urge anybody that is interested in 
this subject to see it about three times. If my memory serves 
me correct, Omar Sharif and Peter O'Toole and Alex Guiness and 
Anthony Quinn all rode to Damascus under the guise of uniting 
all Arab tribes and to take down the Turkish occupation of 
Damascus--by the way, on behalf of Great Britain, which is what 
it was all about. But once they got there and all sat around a 
table, the lights went off, the hospitals did not work, the 
water did not work, everything sort of turned into a very bad 
situation.
    So they all got on their camels and went back to their 
original tribal lands and continued it to the point that it is 
today, that nothing has really changed unless it is technology. 
Who did that? David Lean I think was the director.
    That is a pretty negative view on all this. However, Samuel 
Huntington indicated that western nations should quit trying to 
export our values in places where they are not welcome and have 
not taken root, and re-establish them and nurture them in 
places where they have.
    How do we do this? In fact nation-building in Afghanistan 
may be part of the answer, but my word, I do not know if there 
is enough money and enough time and enough effort to do that to 
the degree that we would want to to prevent--of course, Osama 
did not used to be there. The only reason that we are there is 
because he runs a terrorist group trying to kill us.
    Now, I have rambled on. Can you offer any suggestions?
    Mr. Jenkins. I have the easy part. I only have to think 
about terrorists. You have the much more difficult part, you 
have much broader decisions to deal with.
    I do not know that we can. If you look at a place like 
Afghanistan, I think one lesson that we have learned, we can 
either leave it as it is and periodically come back; it will 
remain in a perpetual state of semi-war. We can just keep on 
going after bin Laden and the son of bin Laden and the grandson 
of bin Laden and whoever else comes along after that. That is 
one future scenario. Or we can try, with the limits of our 
resources and without being imperialist, to attempt to put into 
place something that has a reasonable chance of working better 
than the anarchy that they have now.
    Either we accept Afghanistan in perpetual anarchy--tribes, 
warlords--and we will just be a bigger warlord with air power 
that will occasionally come in, or we can try to do something. 
Will we succeed? That I do not know.
    Senator Roberts. We have had this situation with Kosovo 
which is somewhat comparable, although that was not of vital 
national interest, with all due respect. You have the Russian 
influence now and all the Stan countries and the Northern 
Alliance. You have Pakistan on the other side. This is going to 
be quite a feat if we can pull it off, I would agree.
    I had only one other comment. The TAG group that advises 
the Intelligence Committee, the Technical Advisory Group, 
indicated to the chairman's question what is next, that we can 
expect that you could guess 100 times and be wrong on 100 and 
they would do 101. That is the definition of a terrorist. The 
only defense against terrorism is a very aggressive offense, 
and that we ought to use all technology, all means, all legal 
means, to try to figure this out, or you will get back to your 
complacency situation and we are in for a very long and 
difficult time.
    Do you agree with that?
    Mr. Jenkins. I do, simply because I know from experience 
that physical security measures, the control measures that we 
can put in, do not prevent terrorism; they displace the risk. 
That does not mean we should not do things to improve the 
protection of commercial aviation, certain aspects of our 
critical infrastructure, because we do want to displace the 
risk. There are certain things that we definitely do not want 
to happen. We do not want more airplanes crashing into more 
buildings. We are going to have to improve aviation security; 
apart from even consideration about the passengers, these are 
potential weapons. We have to do a better job there.
    So some things are clear and obvious and we must do them, 
but we know that on the basis of security alone we cannot win. 
We cannot create a society that has enough controls and enough 
guards and enough concrete barriers without fundamentally 
changing the nature of that society to defeat terrorism with a 
defense.
    Therefore, we are obliged, even if we did not want to 
engage in this, to dismantle the terrorists' capability. That 
does not mean we are going to eradicate or wipe out terrorism. 
Forget terms that are more properly reserved for the field of 
public health. We are going to contain it, we are going to 
combat it and keep it within certain levels.
    We can exist as a Nation with a certain level of terrorist 
activity in the world. We cannot go on, even if it is every 
third year or fourth year or fifth year, with what happened on 
September 11 or worse. That requires destroying that particular 
organization and any other organization that has those 
capabilities.
    Senator Landrieu. Thank you. That is a perfect place to end 
this open session, because that is exactly what our 
subcommittee is basically charged with the task of helping to 
lead this Armed Services Committee and the Senate and Congress. 
We thank you for the contributions you have made to that 
effort.
    The closed session for members only and the highest level 
clearance will be in 232 right next door. Thank you.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
    1. Senator Thurmond. Dr. Post, in response to a question by Senator 
Roberts regarding what steps we could take to win the ``hearts and 
minds'' of the population in the Muslim world, you responded, ``provide 
outlets for their grievances.''
    Could you be more specific? How do we provide these ``outlets'' 
while protecting those secular regimes in the region that currently 
support us?
    Dr. Post. When societies are blocked, when there is no opportunity 
for youth to see opportunities within the society, they may well be 
compelled to strike out violently in despair. But, when there is 
opportunity for social justice and economic advancement within the 
society, when legitimate political activism is experienced as offering 
promise, this in the long-run will diminish the attraction of the path 
of terrorism. This is what I meant by ``outlets for their grievances.'' 
During the first Intifada, the attraction of Palestinian youth to the 
path of terrorism was diminished when they experienced the promise of 
achieving their goals within society, through active participation in 
the political process. This need not threaten the secular regimes that 
support us. Indeed, improving the educational systems within their 
nations, and helping to open up their societies, will lessen the 
resentment toward the leadership that now exists.

    2. Senator Thurmond. Mr. Jenkins, you commented that the United 
States is doing a poor job in the information campaign compared with 
the al Qaeda network and bin Laden.
    Do you believe the United States Information Agency could or should 
play a more prominent role in this regard? 
    Do you believe there is a better model for fighting the battle for 
the ``hearts and minds'' of those in the developing world who are 
susceptible to the influence of radical Islam, and could you describe 
that model?
    Mr. Jenkins. We need a comprehensive communications project to 
support our current war against terrorism that comprises both tactical 
and strategic elements aimed at reducing al Qaeda's influence and 
combating some of the underlying antagonisms in the Islamic world.
    The effort would include both specific psychological operations and 
a broader effort to project fundamental American values such as human 
rights, liberty, democracy, equality of race and gender, and religious 
tolerance. We also want to support secular education and free 
expression. We would want to make it clear that these are our values--
we are not engaged in religious proselytization, the destruction of 
local cultures, or subverting allied governments. There, inevitably, 
will be tensions between our values and oppressive local governments 
that often are our allies; keep in mind that the opponents of these 
governments may often be the bellicose fundamentalists who despise us 
the most. It would be ironic if Afghanistan were to become an example 
of democracy, but it has the ingredients, and with international help, 
it may be possible.
    A 21st century version of the USIA can play a vital role in 
supporting U.S. efforts along with other State Department programs, 
Voice of America, new regional versions of Radio Free Europe, Radio 
Liberty, and other communications outlets.

    [Whereupon, at 4:06 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
